Audit Report




OIG-09-039
SAFETY AND SOUNDNESS: Material Loss Review of Downey
Savings and Loan, FA
June 15, 2009




Office of
Inspector General
Department of the Treasury
 
Contents

Audit Report...............................................................................................           1

    Results in Brief ..........................................................................................       2

    Causes of Downey’s Failure........................................................................               3
      Concentrations in Higher-Risk, Nontraditional Mortgage Loans....................                               3
      Inadequate Risk-Monitoring Systems……………………………………………….                                                         10
      Unresponsiveness to OTS Recommendations ………. ................................                                 11
      High Turnover in Downey Management ...................................................                        12
      Decline in House Prices in Downey Markets …………………………… ...........                                             12

    OTS’s Supervision of Downey ....................................................................                13
      OTS’s Internal Failed Bank Review Identified Several Key Areas Where OTS
         Guidance Should Be Strengthened .......................................................                    15
      A Stronger Supervisory Response to Downey’s Concentrations Was
          Warranted ……………………………………………………………………….....                                                                17
      OTS Did Not Follow Its Guidance on Enforcement Actions When
         Downey’s CAMELS Composite Rating Was Downgraded to 3 ...............                                       20
      OTS Appropriately Used Prompt Corrective Action.... ................................                          22

        Recommendation ..................................................................................           23

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                    25
    Appendix     2:      Background........................................................................         28
    Appendix     3:      Glossary ............................................................................      32
    Appendix     4:      Chronology of Significant Events ..........................................                38
    Appendix     5:      OTS Downey Examinations and Enforcement Actions ............                               44
    Appendix     6:      Prior OIG Material Loss Review Recommendations ……………. .                                    62
    Appendix     7:      Management Response .......................................................                64
    Appendix     8:      Major Contributors to This Report .........................................                66
    Appendix     9:      Report Distribution ..............................................................         67




                         Material Loss Review of Downey Savings and Loan Association, F.A.                        Page i
                         (OIG-09-039)
Abbreviations

  ALLL              allowance for loan and lease losses
  AML               anti-money laundering
  ARM               adjustable rate mortgage
  BSA               Bank Secrecy Act
  C&D               cease and desist
  CEO               chief executive officer
  DFC               Downey Financial Corporation
  Downey            Downey Savings and Loan Association, F.A.
  ERC               enforcement review committee
  FICO              Fair Isaac Cooperation
  FDIC              Federal Deposit Insurance Corporation
  LTV               loan-to-value
  MRBA              matters requiring board attention
  MSA               mortgage servicing assets
  ND                New Directions
  OFAC              Office of Foreign Assets Control
  OTS               Office of Thrift Supervision
  PCA               prompt corrective action
  QRM               quantitative risk management
  REO               real-estate owned
  ROE               report of examination
  TWA               transactions with affiliates
  USAPA             United States of America Patriot Act




                Material Loss Review of Downey Savings and Loan Association, F.A.   Page ii
                (OIG-09-039)
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                  June15, 2009

                  Mr. John Bowman, Acting Director
                  Office of Thrift Supervision

                  This report presents the results of our review of the failure of
                  Downey Savings and Loan Association, F.A. (Downey), of Newport
                  Beach, California, and of the Office of Thrift Supervision’s (OTS)
                  supervision of the institution. Our review was mandated under
                  section 38(k) of the Federal Deposit Insurance Act, as amended.
                  OTS closed Downey and appointed the Federal Deposit Insurance
                  Corporation (FDIC) as receiver on November 21, 2008. As of
                  May 8, 2009, FDIC’s estimated cost to the Deposit Insurance Fund
                  from Downey’s failure was $1.4 billion.

                  Section 38(k) requires that we determine why Downey’s problems
                  resulted in a material loss to the insurance fund; review OTS’s
                  supervision of Downey, including implementation of the prompt
                  corrective action (PCA) provisions of section 38; and make
                  recommendations for preventing any such loss in the future. We
                  reviewed the supervisory files and interviewed key officials
                  involved in the regulatory enforcement matters. We conducted our
                  fieldwork from January 2009 through April 2009 at OTS’s
                  headquarters in Washington, D.C.; OTS’s regional office in Daly
                  City, California; and the former Downey headquarters in Newport
                  Beach, California. We also met with officials of FDIC’s Division of
                  Supervision and Consumer Protection in San Francisco, California,
                  and interviewed FDIC’s Division of Resolutions and Receiverships
                  personnel.

                  Appendix 1 contains a more detailed description of our objectives,
                  scope, and methodology. Appendix 2 contains background
                  information on Downey and OTS’s enforcement processes. We
                  also provide a glossary as appendix 3. At their first use in this
                  report, terms included in the glossary are underlined and
                  hyperlinked to the glossary. Appendix 4 is a chronology of

                  Material Loss Review of Downey Savings and Loan Association, F.A.       Page 1
                  (OIG-09-039)
               significant events related to Downey and supervision of the thrift.
               Appendix 5 contains significant examination results and
               information on enforcement actions.


Results in Brief
               The primary causes of Downey’s failure were the thrift’s high
               concentrations in single-family residential loans which included
               concentrations in option adjustable rate mortgage (ARM) loans,
               reduced documentation loans, subprime loans, and loans with
               layered risk; inadequate risk-monitoring systems; the thrift’s
               unresponsiveness to OTS recommendations; and high turnover in
               the thrift’s management. These conditions were exacerbated by
               the drop in real estate values in Downey’s markets.

               OTS conducted timely and regular examinations of Downey and
               provided oversight through its off-site monitoring. OTS also
               conducted an internal failed bank review as required by OTS policy.
               The review found that a more forceful regulatory response is
               warranted when thrifts have concentrations of higher-risk
               nontraditional mortgage products. We affirm OTS’s internal
               findings and the need for corrective action, particularly the need for
               more definitive guidance on concentration risk for nontraditional
               mortgage loans and OTS’s authority to address thrifts taking
               excessive risks in these loan products.

               In addition, we found that OTS did not follow its existing guidance
               for taking enforcement action, as prescribed in the OTS
               Examination Handbook, when it issued an informal rather than
               formal enforcement action in 2006. OTS examiners told us that
               they exercised their regulatory discretion in taking informal rather
               than formal enforcement action. In addition, OTS examiners told us
               that the institution became more responsive to OTS’s supervision
               and that OTS accomplished the same results as if formal
               enforcement action had been taken. In this regard, we agree that
               the informal action taken was strong; however, OTS did not follow
               its own written guidance to the letter.

               We also concluded that OTS appropriately used its authority under
               PCA when it issued a cease and desist (C&D) order in September
               2008 that, among other things, reclassified Downey’s capital level

               Material Loss Review of Downey Savings and Loan Association, F.A.   Page 2
               (OIG-09-039)
             to adequately capitalized and imposed restrictions even though the
             thrift’s capital level at the time met the definition of well-
             capitalized.

             We recommend that the Director of OTS ensure that the
             recommendations from OTS’s internal assessment of the Downey
             failure are implemented and the lessons learned described in that
             assessment are taken into account going forward. In this regard,
             OTS should direct examiners to closely review and monitor thrifts
             that refuse to establish appropriate limits for concentrations that
             pose significant risk and pursue corrective action when
             concentration limits are not reasonable. OTS should assess the
             need for more guidance for examiners on determining materiality of
             concentrations and determining appropriate examiner response to
             high-risk concentrations, including when to impose absolute limits
             to prevent excessive concentration. Additionally, OTS should
             formally communicate to the industry the guidance in New
             Directions (ND) Bulletin 06-14, Concentrations of Risks, as to
             OTS’s expectation that concentration measurements and limits be
             set as a percent of capital, not just as a percent of total assets or
             loans, and the need for a sound internal risk management system
             (including stress testing, regular periodic monitoring, and other risk
             management tools) for higher-risk concentrations.

             In a written response, OTS concurred with our recommendation.
             OTS plans to issue further guidance regarding concentrations to
             both the thrift industry and OTS staff that will address asset and
             liability concentration issues described in this report, as well as
             those that have been identified internally by OTS. OTS plans to
             implement our recommendation from this review by the end of the
             third quarter of 2009. We consider the planned actions as outlined
             in OTS’s response to be responsive to our recommendation. The
             response is provided as appendix 7.


Causes of Downey’s Failure
             Concentrations in Higher-Risk, Nontraditional Mortgage Loans

             As of September 2008, single-family residential loans constituted
             86 percent of Downey’s total assets, down slightly from the end of
             2002, when they constituted 90 percent of Downey’s total assets.

             Material Loss Review of Downey Savings and Loan Association, F.A.   Page 3
             (OIG-09-039)
                      Within its single-family loan portfolio, Downey’s pay option (option)
                      ARM loans comprised 91 percent of total single-family mortgage
                      loans as of end of 2005. Option ARM loans are a type of ARM that
                      allows the borrower to choose between alternative monthly
                      payment amounts during an initial period of the loan. Although
                      single-family residential loans have historically been among the
                      most secure assets in banks’ portfolios, the downturn in the
                      California real estate market that started in 2006 exposed the risk
                      in Downey’s high concentration in these loans. As a result,
                      Downey suffered large losses and erosion of capital.

                      Concentration in Option ARM Products

                      Most of the loans in Downey’s single-family residential loan
                      portfolio were option ARM, a nontraditional mortgage product. 1
                      The underwriting for these loans can be risky because they give
                      borrowers the option of making monthly payments that do not
                      cover the interest charges accrued. The difference between the
                      interest due and the amount paid is added to the principal balance
                      of the loan, reducing the borrower’s equity in the home (unless the
                      home constantly increases in value at a rate higher than the
                      additional principal amount, a condition unlikely sustainable in the
                      long term). Downey started offering these loan products 10 years
                      before its failure, and they had always been a high percentage of
                      its total loan portfolio. As figure 1 shows, at the end of 2001, 73
                      percent of all Downey’s loans had negative amortization potential,
                      and by 2005, the percentage had grown to 91 percent. Most of
                      Downey’s option ARMs allowed borrowers to negatively amortize
                      their loans up to 110 percent of the initial value of the loan. The
                      decline in housing prices in Downey’s California market area that
                      began in 2006 resulted in even further declines in borrowers’
                      equity in their homes.




1
  Interagency Guidance on Nontraditional Mortgage Product Risks, (October 4, 2006), states that
nontraditional mortgage loans include such products as interest only mortgages where a borrower pays
no loan principal for the first few years of the loan and payment option ARMs where the borrower has
flexible payment options with the potential for negative amortization.

                      Material Loss Review of Downey Savings and Loan Association, F.A.        Page 4
                      (OIG-09-039)
Figure 1: Downey’s Residential Loan Portfolio by Type and Year



 100%
  90%
  80%
  70%
  60%
  50%
  40%
  30%
  20%
  10%
   0%




                                 Portfolio Date             Other Single Family Loans

                                                            Loans without negative 
                                                            amortization potential
                                                            Loans with negative 
                                                            amortization potential



Source: Downey presentation to OTS (Sept. 30, 2008).

Furthermore, these loans, by their terms, would automatically
recast into higher payment requirements after 5 years. However,
Downey offered these loan products with a low introductory
payment option that could potentially have accelerated the
timeframe from 5 years to as few as 3 years if market interest
rates were rising. For borrowers who frequently exercised the
optional minimum (negative amortization) payment amount, the
recast could occur sooner when the loan balance hit the 110
percent maximum value. The recast could significantly increase the
borrower’s monthly payment; not only would the interest rates
increase, the interest amount owed would be based on a higher
loan balance. As a result, Downey experienced increased
delinquencies and foreclosures. Downey also had to increase its


Material Loss Review of Downey Savings and Loan Association, F.A.              Page 5
(OIG-09-039)
                      allocations to the allowance for loan and lease losses (ALLL), all of
                      which negatively affected Downey’s income and capital.

                      Starting in 2005, there was an increase in Downey’s capitalized
                      interest balance. As shown in figure 2, the thrift’s total amount of
                      capitalized interest more than tripled from 2004 to 2005 and then
                      tripled again in 2006 as borrowers elected the optional minimum
                      payment.

                      Figure 2: Downey’s Capitalized Interest by Year (in millions)


                      $400

                      $350

                      $300

                      $250

                      $200
                                                                                          Capitalized Interest
                      $150

                      $100

                       $50

                        $0




                                                     Date

                      Source: OTS 2007 examination report, FDIC 2008 examination report

                      Generally accepted accounting principles require that capitalized
                      interest be reported as earned income if there is a reasonable
                      expectation of collection. 2 OTS examiners told us that in the case
                      of Downey, the capitalized interest was reasonably expected to be
                      collected because there was no history to suggest otherwise.
                      Downey continued to report the capitalized interest as earned
                      income when, in fact, in many instances the capitalized interest
                      was never collected. As borrowers began defaulting on their loans,


2
 Financial Accounting Standards Board Statement of Financial Accounting Concepts No. 5, Recognition
and Measurement in Financial Statements of Business Enterprises

                      Material Loss Review of Downey Savings and Loan Association, F.A.                Page 6
                      (OIG-09-039)
       the number of foreclosures increased. As a result, Downey’s losses
       increased, contributing to its failure.

       Concentration in Reduced Documentation Loans

       Over time, Downey’s loan underwriting standards, in terms of
       income and asset documentation requirements, became more
       lenient. Downey required no documentation for some borrowers.
       For others, Downey required that assets, but not income, be
       documented. As figure 3 shows, the trend toward reduced
       documentation loans rose from an already high level of 60 percent
       of Downey’s option ARM portfolio in 2000 to 91 percent of that
       portfolio in March 2008.

Figure 3: Documentation Type of Downey Option ARMs 2000-2008


    100%
     90%
     80%                                                           Full 
     70%                                                           Documentation 
     60%                                                           Loans
     50%
     40%                                                           Reduced 
     30%                                                           Documentation 
     20%                                                           Loans
     10%
      0%




                           Portfolio Date


Source: Downey presentation to OTS (Mar. 31, 2008).

       According to OTS documentation, Downey started offering reduced
       documentation loan products in 1987 for borrowers who were
       unable to provide hard documentation of their income because they
       were self-employed or worked on commission. Downey decided to
       offer this product to borrowers outside this target group, however,
       and had several loan programs with reduced underwriting
       standards.


       Material Loss Review of Downey Savings and Loan Association, F.A.            Page 7
       (OIG-09-039)
                      One of Downey’s reduced-underwriting loan programs was the
                      Downey Lite loan. For the loans made under this program, Downey
                      did not verify the borrower’s income but did verify the borrower’s
                      assets. Downey reviewed the borrower’s FICO score and the
                      appraisal of the property being held as collateral.

                      In October 2003, Downey expanded the use of an existing loan
                      program called Downey Express, which was a stated income and
                      stated asset loan – that is, Downey did not verify the borrower’s
                      income and assets. Underwriting was limited to Downey’s review
                      of the property appraisal (the program required a loan-to-value ratio
                      (LTV) of no more that 75 percent) and the borrower’s FICO score. 3
                      According to the minutes of its October 2003 meeting, Downey’s
                      board of directors decided to expand the Downey Express program
                      in an effort to remain competitive. Downey management informed
                      the board that other thrifts imposed far fewer loan restrictions than
                      Downey. Moreover, management told the board that mortgage
                      brokers wanted the least number of loan conditions because rapid
                      loan processing was essential in a purchase market. 4 At the end of
                      2003, 90 percent of Downey’s loans were originated by mortgage
                      brokers and others in the wholesale market. At the same October
                      2003 meeting, the board agreed to management’s request to raise
                      the LTV ratio required for a Downey Express loan from 75 percent
                      to 80 percent (having the effect of lowering underwriting standards
                      further), and expanded the program to include subprime borrowers.

                      Concentration in Subprime Loans

                      As a part of its business, Downey also originated subprime loans.
                      OTS’s reports of examination (ROE) for 2002, 2004, 2005, and
                      2006 all reported that Downey had a concentration in subprime
                      loans. During these years subprime loans made up as much as 16
                      percent of Downey’s total loan portfolio. Over time, these loans
                      represented a smaller and smaller percentage of Downey’s loan
                      portfolio, decreasing to 4 percent as of September 2008. However,
                      both OTS and FDIC examiners expressed concerns as early as
                      2005 that Downey was classifying loans to borrowers with FICO

3
  In its 2004 ROE, OTS noted that this program had a wide range of acceptable FICO scores for
subprime borrowers.
4
  The purchase market refers to the market for mortgages for home purchases. The other component of
the primary mortgage market is the refinance market.

                      Material Loss Review of Downey Savings and Loan Association, F.A.       Page 8
                      (OIG-09-039)
scores of less than 620 as prime. As of December 31, 2005,
Downey had $424 million of loans categorized as prime to
borrowers with FICO scores below 620. Accordingly, the
percentage of subprime loans in Downey’s portfolio was potentially
understated. Beginning in 2006, Downey defined all loans to
borrowers with FICO scores of 620 or lower as subprime.

Layering of Risks

Downey’s underwriting of option ARMs, reduced documentation,
and subprime loans was considered high risk by OTS examiners.
Downey engaged in an even riskier practice by offering two or
more of these features in the same loan product. Through Downey,
it was possible for a subprime borrower to get an option ARM loan
(with negative amortization potential) with reduced documentation.
At the end of 2003, 68 percent, or $6.5 billion, of Downey’s
portfolio of mortgage loans held for investment had negative
amortization and reduced documentation. By the end of 2005, this
percentage had increased to 86 percent, or $12.6 billion of
Downey’s loans held for investment. Additionally, while subprime
loans were becoming a smaller portion of Downey’s loan portfolio,
reduced documentation and negative amortization features were
being added to subprime loan products. At the end of 2003, 66
percent ($647 million) of Downey’s subprime loans had reduced
documentation and negative amortization features; that percentage
grew to 82 percent ($866 million) by the end of 2005. This
layering of risk greatly increased the risk associated with these
Downey assets.

Resulting Collapse

By the end of 2007, Downey’s option ARM portfolio began to
quickly deteriorate. Downey had a large amount of option ARM
loans that were on target to recast very soon and some that were
on track to recast early because of negative amortization. This
recasting would greatly increase many borrowers’ monthly
payments. Not only would interest rates on these loans rise, but -
because of negative amortization – so would the principal balance
on which the interest owed would be calculated. In an effort to
stem the number of potential loan defaults, Downey instituted a
plan for refinancing loans it deemed to have potential for default.


Material Loss Review of Downey Savings and Loan Association, F.A.   Page 9
(OIG-09-039)
These refinanced loans would typically require higher monthly
payments than borrowers’ current minimum payments, but lower
than those that would have resulted from recasting.

According to OTS examiners, Downey’s external auditor initially
agreed with management’s view that this program was merely a
loan refinancing program. After further review, however, the
auditor concluded that the loan modification program was a
troubled debt restructuring. Categorizing the program a troubled
debt restructuring resulted in Downey deciding to designate many
of the loans as nonaccrual assets, thereby removing the revenue
stream from these loans from current earnings. Downey also had to
increase its ALLL by $65 million, thereby decreasing earnings.

Even with renegotiated loan terms, many Downey borrowers were
unable to afford their new monthly payments. Downey reported in
September 2008 that 20 percent of its borrowers were 30 days
plus delinquent on their loan payments. Throughout 2008, Downey
sustained substantial losses as loans continued to recast and
defaults on loans increased. In the end, Downey could not recover
from the massive losses it sustained on its risky nontraditional loan
portfolio.

Inadequate Risk-Monitoring Systems

Throughout various examinations, OTS examiners expressed
concerns about Downey’s monitoring of risk in its single-family
residential portfolio. OTS examiners told us that the thrift had
increased its volume of nontraditional loans because of immense
competition from its rivals. OTS examiners believed that Downey
needed better risk-monitoring information to effectively weigh the
risk associated with the nontraditional loans. Because Downey
lacked quick, on demand risk-monitoring information on its single-
family residential portfolio, the thrift continued to increase its use
of nontraditional loans without proper knowledge of their risk
potential.

Downey’s assets grew from $9.3 billion at the end of 2000 to over
$14.5 billion by the end of 2005. This growth was principally in
nontraditional loan products. Downey management had little or no
experience with some of these loan products during a significant


Material Loss Review of Downey Savings and Loan Association, F.A.   Page 10
(OIG-09-039)
downturn in real estate values, and was slow to implement
adequate risk-monitoring systems, hampering management’s ability
to identify the risk profiles of the loans it was selling.

OTS found in its 2004 examination that Downey had purchased
risk-modeling software to measure the risk in its various single-
family loan portfolios. Data to be generated by the risk-modeling
software was considered to be essential for Downey to determine
risk-based capital ratios and ALLL allocations. OTS examiners told
us that Downey management was unfamiliar with the software,
however, and did not use it appropriately. Even after the 2004
examination, risk-monitoring continued to be a problem for
Downey. OTS examiners concluded that Downey’s management of
market risk needed to be improved, stating in the 2005 ROE that
Downey’s existing systems for managing market risks were not
sophisticated enough to provide the thrift with a comprehensive
assessment of market risk exposure. In its 2006 examination of
Downey, OTS found that Downey needed to implement procedures
to improve monitoring of the layered risks in its option ARM
portfolio. In its 2007 ROE for Downey, OTS noted that Downey
had made improvements in risk management that mitigated risks in
the thrift’s single-family residential portfolio and that numerous
characteristics of the portfolio were being fully monitored and
tracked. However, these improvements came too late as by this
time Downey had a large loan portfolio with concentrations in
higher-risk option ARM and reduced documentation loans. The
downturn in the California real estate market that started in 2006
exposed the risk in these loans and Downey suffered large losses
and erosion of capital.

Unresponsiveness to OTS Recommendations

OTS examiners described Downey management as competent but
difficult, and said that many of its decisions were reactive rather
than proactive. According to an OTS examiner, Downey
management often challenged the opinions of the OTS examiners
and began to cooperate more fully with OTS only after a 2006
board resolution, when Downey agreed to add two new directors
to the board and create a task force to conduct a study of
Downey’s organizational and management structure. The lack of
quick response by Downey management and its unwillingness to


Material Loss Review of Downey Savings and Loan Association, F.A.   Page 11
(OIG-09-039)
adhere to OTS recommendations contributed to Downey’s lack of
an adequate risk-monitoring system and ultimately, its failure.

Another example of Downey management’s failure to respond
appropriately to OTS recommendations involved its mortgage
servicing assets (MSAs). OTS recommended in the 2002 and 2004
ROEs that Downey hedge its MSAs to reduce risk. OTS requested
several times that Downey hire someone familiar with the MSA
market or to become more familiar with MSA hedging. During the
same timeframe, Downey incurred net losses in its loan servicing
activities. The net losses were $40 million, $27 million, and
$19 million for 2002, 2003, and 2004, respectively. In November
2004, Downey sold most of its MSAs to reduce future earnings
volatility. The thrift’s net MSA balance was reduced from $82
million at year-end 2003 to $18 million at year-end 2004.

High Turnover in Downey Management

Another recurring problem that OTS identified in its examinations
of Downey was a lack of long-range goals and objectives, which
examiners attributed in part to high turnover in senior management.
Turnover was particularly high in 2004, at 37 percent. A new
president and chief executive officer brought on in February 2004
resigned 7 months later. There was also turnover in the critical
positions of chief credit officer and secondary marketing director. A
growing concern of OTS examiners was that by 2005, Downey
had experienced 50 percent growth in assets in a 5-year span, but
had the same management structure as in 2000. In 2005 the
situation had not improved with turnover at the senior management
level reaching 43 percent. With all of these management changes,
OTS examiners believed that Downey’s ability to constructively
plan for the future was hampered.

Decline in House Prices in Downey Markets

Ninety percent of Downey’s loans were on properties located in
California. A precipitous drop in California house prices between
2006 and 2008 became a significant factor in Downey’s failure.
OTS examiners told us that Downey’s loan portfolio was geared
toward borrowers who in the past, during periods of rising home
values, were able to refinance their ARMs before recasting


Material Loss Review of Downey Savings and Loan Association, F.A.   Page 12
(OIG-09-039)
             occurred. In a declining housing market, that option became
             increasingly unavailable.

             As of Downey’s closure in November 2008, house prices in the Los
             Angeles metropolitan area had dropped 37 percent from their high
             in 2006. With the drop in housing prices, many borrowers lacked
             equity in their homes and were unable to refinance. This situation
             caused an increase in default rates and eventual foreclosures,
             which left the thrift with large amounts of real estate owned (REO)
             properties it was unable to sell. In addition, because of the decline
             in housing prices, Downey’s loss percentage on each of its REO
             properties increased every month throughout 2007 and 2008. In
             September 2007, Downey’s loss on a REO property was nearly 5
             percent. By September 2008, the loss steadily increased to nearly
             40 percent by September 2008. Downey reported a total net loss
             of $51 million in 2007 and a total net loss of $537 million for the
             9-month period ending September 30, 2008. The increase in the
             number of and decline in the value of Downey’s REO properties
             contributed significantly to Downey’s ultimate failure.


OTS’s Supervision of Downey
             OTS conducted timely and regular examinations of Downey and
             provided oversight through its off-site monitoring. As required by
             OTS policy, OTS also conducted an internal failed bank review
             which found that a more forceful regulatory response is warranted
             when thrifts have concentrations of risky nontraditional mortgage
             products. We affirm OTS’s internal findings and the need for
             corrective action. Particularly needed are more definitive guidance
             for examiners on concentration risk for nontraditional mortgage
             loans and OTS’s authority to stop thrifts from taking excessive
             risks in these loan products.

             We found that OTS did not follow its existing guidance for taking
             enforcement action as prescribed in the OTS Examination
             Handbook when it issued an informal enforcement action in 2006
             rather than a formal enforcement action. OTS examiners told us
             that they exercised their regulatory discretion in taking informal
             rather than formal enforcement action. In addition, OTS examiners
             told us that the institution became more responsive to OTS’s
             supervision and accomplished the same results as if formal

             Material Loss Review of Downey Savings and Loan Association, F.A.   Page 13
             (OIG-09-039)
              enforcement action had been taken. In this regard, we agree that
              the informal action taken was strong; however, OTS did not follow
              its own written guidance to the letter.

              We also concluded that OTS used its authority under PCA in an
              appropriate manner when it issued a C&D order in September 2008
              that among other things, reclassified Downey’s capital level to
              adequately capitalized and imposed restrictions even though its
              capital level at the time met the definition of well-capitalized.

              Table 1 summarizes the results of OTS’s annual safety and
              soundness examinations starting with the 2002 examination cycle.
              Appendix 5 provides details of matters requiring board attention
              (MRBA) and other recommended corrective actions in the ROEs.

       Table 1. Summary of OTS’s Downey Examinations and Enforcement Actions
                                             Examination Results
                                                  Number
                                                  of
              Assets (in CAMELS      Number of corrective      Informal and Formal
Date started millions)   rating      MRBAs        actions      enforcement actions
12/2/2002       $12,500      2/222223           3             9        None
1/12/2004       $11,600      2/223223           6            15        None
1/3/2005        $15,650      2/223223           8            22        None
                                                                       Board Resolution
 1/3/2006       $17,100      3/233223           9            15
                                                                       7/28/2006
                                                                       C&D order for Bank
 3/5/2007       $15,200      3/233222           3            15        Secrecy Act compliance
                                                                       issues 8/30/2007
                                                                       C&D order for safety and
3/10/2008       $13,100      4/444443          10            14        soundness issues
                                                                       9/5/2008
                                                                       Consent to the
                                                                       appointment of a
                                                                       conservator or receiver;
                                                                       Downey’s board did not
                                             Rating                    consent to appointment
11/17/2008         NA        5/554543
                                           downgrade                   of receiver but did
                                                                       communicate that the
                                                                       board would be
                                                                       cooperative if OTS closed
                                                                       Downey
   Source: OTS ROEs.




              Material Loss Review of Downey Savings and Loan Association, F.A.          Page 14
              (OIG-09-039)
                       OTS’s Internal Failed Bank Review Identified Several Key Areas
                       Where OTS Guidance Should Be Strengthened

                       In accordance with OTS policy, OTS staff completed an internal
                       review of the Downey failure. 5 As discussed in a March 2009
                       report, OTS determined that the primary cause of Downey’s failure
                       was its exposure to concentrations in high-risk mortgage loans,
                       which resulted in losses and erosion of capital as the California real
                       estate market deteriorated.

                       OTS cited the following lessons learned in its report:

                       •   Some underwriting practices evolving under competitive market
                           conditions may produce loans of significantly greater risk. These
                           practices must be evaluated for prudency for federally insured
                           institutions, even if regarded as standard in the mortgage
                           industry. The need for such evaluation is especially relevant to
                           institutions with concentrations of loans generated under these
                           standards.
                       •   Due to considerably higher-risk profile of nontraditional
                           mortgage loan products, particularly those with layered risk
                           features, regulatory tolerance for concentrations in such loans
                           must be significantly lower than for traditionally underwritten,
                           prime 1 to 4 family loans.
                       •   During extended periods of favorable economic conditions, high
                           risk activities and concentration risks can be masked by
                           financial success.
                       •   Concentration risk mitigation practices are essential regardless
                           of current economic conditions.
                       •   The absence of explicit regulatory guidance or the support of
                           sophisticated modeling techniques should not preclude
                           regulators from exercising discretion in limiting or discontinuing
                           activities presenting excessive risk.

                       The OTS report made the following recommendations:



5
  OTS policy requires that an internal assessment be conducted when a thrift fails. That assessment,
referred to as an internal failed bank review, is performed by staff independent of the region responsible
for supervisory oversight of the failed thrift. The report is reviewed and signed by OTS’s Deputy
Director of Examinations, Supervision, and Consumer Protection.

                       Material Loss Review of Downey Savings and Loan Association, F.A.           Page 15
                       (OIG-09-039)
                      Concentration Risk Mitigation

                      •   In addition to exercising discretion towards imposing higher
                          capital requirements, regional management should closely
                          evaluate the need to impose concentration limits for
                          nontraditional mortgage loans, set as a percentage of capital,
                          appropriate to the risk level of the loan category.
                      •   OTS should consider amendments to its Concentrations of Risk
                          Policy providing for staff to seek absolute limits, expressed as
                          percentages of capital, for concentrations in assets or liabilities
                          presenting higher-risk. To prevent excessive concentration
                          levels, such limits may need to be sought, notwithstanding the
                          quality of management oversight or expertise.

                      Supervisory Approach

                      •   In the absence of specific regulatory guidance, regional
                          management should take aggressive proactive supervisory
                          action to limit or cease activities presenting excessive risk.

                      Enforcement Review Committee (ERC) Documentation for Policy
                      Compliance

                      •   West Region management should remind staff of the
                          importance of fully documenting conclusive support for
                          recommended and approved actions under OTS Enforcement
                          Policy. Regional staff should perform periodic reviews to
                          validate full compliance.

                      OTS officials informed us that it has partially addressed the lesson
                      learned regarding concentration risk mitigation by issuing a
                      memorandum to thrift chief executive officers. In that
                      memorandum, dated September 17, 2008, OTS directed that thrift
                      board-approved loan policies should establish limits on mortgages
                      originated by the thrift for sale to investors. 6 The officials also
                      stated that OTS plans to issue a directive by mid-July 2009 to fully
                      address the issue. With respect to ERCs, OTS issued ND Bulletin

6
  OTS, CEO Memorandum, “Documentation and Underwriting Standards,” September 17, 2008. The
memorandum describes how the level of pipeline, warehouse, and credit-enhancing repurchase exposure
for mortgage loans originated for sale to non-government sponsored enterprise purchasers can
constitute a concentration risk.

                      Material Loss Review of Downey Savings and Loan Association, F.A.     Page 16
                      (OIG-09-039)
                       09-11, Regional Enforcement Review Committees, on May 1,
                       2009, requiring improved documentation supporting enforcement
                       recommendations to the ERC. ND Bulletin 09-11 also requires OTS
                       regions to monitor the compliance with and the effectiveness of
                       enforcement actions, and provide recommendations to the ERC
                       when modifications or terminations of enforcement actions are
                       proposed.

                       Based on our review of the examination records and reports and
                       our interviews with OTS staff, we affirm OTS’s internal findings
                       and the need for corrective action. Particularly needed, based on
                       the causes of Downey’s failure, are more definitive guidance on
                       concentration risk for nontraditional mortgage loans and the
                       expectations for OTS examiners and regional officials to address
                       thrifts from taking excessive risks with respect to these loan
                       products. We note that concentrations in nontraditional mortgage
                       loans was a cause of the failure of IndyMac Bank, FSB, and other
                       banks. 7

                       A Stronger Supervisory Response to Downey’s Concentrations Was
                       Warranted

                       OTS examiners repeatedly expressed concern about the high risk
                       posed by Downey’s option ARMs, reduced documentation, and
                       subprime loan products. Although OTS examiners reported their
                       concerns about Downey’s concentration in single-family residential,
                       higher-risk, and layered-risk loans in the 2002 through 2006 ROEs,
                       they did not direct Downey to take corrective actions to limit the
                       thrift’s concentration in these loans. However, in the 2002 ROE,
                       OTS did impose a higher capital requirement on Downey’s
                       subprime loans. As discussed on page 8, Downey’s concentration
                       in subprime loans decreased to 4 percent as of September 2008
                       from 16 percent of its loan portfolio in 2002.




7
 OIG, Safety and Soundness: Material Loss Review of IndyMac Bank, FSB, OIG-09-032 (Feb. 26,
2009). The primary cause of IndyMac’s failure was its business strategy of originating and securitizing
Alt-A loans on a large scale that resulted in a high concentration of risky assets. An Alt-A loan is a loan
that typically does not involve verification or documentation of income, assets, or employment. Instead,
the approval of the loan is based primarily on the applicant’s FICO score.


                       Material Loss Review of Downey Savings and Loan Association, F.A.           Page 17
                       (OIG-09-039)
According to OTS’s October 2002 ND Bulletin 02-17,
Concentrations of Risk, OTS examiners are to identify, report,
evaluate, and develop an effective supervisory response concerning
concentration of risk during examinations. Where supervisory
concerns exist, examiners are to discuss those concerns within the
body of the ROE and promptly initiate appropriate corrective or
supervisory action. ND Bulletin 02-17 requires examiners to list
specific concentrations of risk (defined as a higher-risk asset or
liability whose aggregate total exceeds 25 percent of core capital)
in an appendix to the ROE. ND Bulletin 06-14, issued in November
2006, superseded ND Bulletin 02-17 and defined a concentration
as a group of similar types of assets or liabilities that, when
aggregated, exceed 25 percent of core capital plus ALLL. ND
Bulletin 06-14 also requires that examiners identify concentrations
that exceed 100 percent of core capital plus ALLL on the
concentrations page in the ROE. Additionally, both ND Bulletin
02-17 and ND Bulletin 06-14 required examiners to comment on
the following factors inherent in the thrift’s operations that could
aggravate concentration risk:

•   lack of board of director policies on concentrations and
    established limits on riskier type of business activities,
•   lack of oversight by the board of directors,
•   lack of management depth or expertise,
•   poor internal controls or underwriting processes,
•   rapid growth unchecked by management review and established
    limits on activity, and
•   inadequate management information systems to identify and
    monitor concentrations of risk.

In the 2002 through 2006 ROEs, examiners commented on
multiple factors aggravating the concentration risk at Downey. One
factor discussed in every ROE was inadequate management
information systems for identifying and monitoring concentration
risk. In the 2002 ROE, OTS examiners recommended that Downey
develop a loss modeling capability to better assess and differentiate
the loss potential in the nontraditional loan products being offered.
OTS reported in the 2004 ROE that Downey needed to enhance its
risk-monitoring systems to address Downey’s concentration in
layered-risk loans. During the 2005 and 2006 exams, OTS

Material Loss Review of Downey Savings and Loan Association, F.A.   Page 18
(OIG-09-039)
continued to express concerns regarding Downey’s ability to
analyze risk within its loan portfolio and regarding significant
exposure to market risks associated with its concentration in
higher-risk nontraditional mortgages.

OTS examiners also expressed concerns regarding management’s
depth and expertise and the lack of oversight by Downey’s board.
Furthermore, examiners expressed concern in the 2005 ROE about
management’s stability given the substantial growth that had
occurred and the high turnover at Downey’s executive level. In the
2006 ROE, examiners continued to report weaknesses in board
oversight and how management instability continued to adversely
affect management’s ability to recognize and respond to emerging
risk factors. OTS examiners reported that management did not
satisfactorily quantify the risks relating to core and risk-based
capital; therefore, OTS required that Downey management
establish higher capital ratios given the higher-risk characteristics
of its loan portfolio.

OTS examiners did not require Downey to limit concentrations in
higher-risk loan products. We believe that in light of the OTS’s
repeated expressions of concern and management’s
unresponsiveness to those concerns, OTS should have been more
forceful, at least by 2005, to limit such concentrations. In
interviews, OTS examiners commented that this would have been
difficult since there was no history of losses in Downey’s option
ARM, low documentation, and layered-risk loans from 2002 to
2006. However, both ND Bulletin 02-17 and the successor ND
Bulletin 06-14 provide that examiners can direct thrifts to
discontinue activities that lead to a specific high-risk concentration
when proper oversight and controls are not in place. We believe
that if there is one lesson to be learned from Downey’s failure it is
that a lack of losses in the short term should not negate the need
to address risk exposure such as high concentrations.

Therefore, based on our review of the current OTS guidance on
concentrations of risk and in light of the role high concentrations
played in Downey’s failure, we believe that OTS’s guidance could
be more specific as to when OTS examiners should require thrifts
to take action on high concentrations. While ND Bulletin 06-14
does require examiners to make a determination about the


Material Loss Review of Downey Savings and Loan Association, F.A.   Page 19
(OIG-09-039)
materiality of the risk a concentration poses and the need for
corrective or supervisory action, it does not provide specific
guidelines on determining materiality, beyond requiring the listing of
assets and liabilities that exceed 100 percent of core capital plus
ALLL in the ROE. In Downey’s case, as of December 31, 2005, the
thrift’s option ARMs and Downey Lite loans had reached 1004
percent and 946 percent, respectively, of core capital plus ALLL.

OTS Did Not Follow Its Guidance Regarding Enforcement Actions
When Downey’s CAMELS Composite Rating Was Downgraded to 3

As a result of its 2006 examination of Downey, OTS downgraded
the thrift’s CAMELS composite and asset quality ratings from 2 to
3, and for the third consecutive examination, the management
component was rated a 3. As a result, OTS had the thrift execute
an informal enforcement action in the form of a board resolution.

According to section 370 of the OTS Examination Handbook in
effect at the time, a formal enforcement action was presumed
warranted for 3-rated thrifts under any of the following
circumstances:

•   weak management
•   uncertainty as to whether management and the board have the
    ability or willingness to take appropriate corrective measures
•   rapidly deteriorating conditions
•   a 3 rating for two consecutive examinations following the thrift
    entering into an informal enforcement action, unless the thrift
    complies with the informal enforcement action and no new
    grounds exist for taking a formal action

Section 370 did permit examiners the flexibility to use informal
enforcement actions against 3-rated thrifts if the thrift had strong
management and examiners believed remedial measures to
examination findings would be taken promptly.

We believe that the first two circumstances mentioned above were
clearly met when OTS downgraded Downey’s composite rating to
a 3. Accordingly, based on this guidance, OTS should have issued
a formal enforcement action in May 2006. The first time OTS

Material Loss Review of Downey Savings and Loan Association, F.A.   Page 20
(OIG-09-039)
issued a formal enforcement action against Downey was on
August 30, 2007, in the form of a C&D order. However, that C&D
order related to the Bank Secrecy Act/Anti-Money Laundering
compliance deficiencies. The first formal enforcement action by
OTS to address Downey’s unsafe and unsound lending practices
was not issued until September 5, 2008, in the form of a C&D
order - only about 10 weeks before OTS closed Downey on
November 21, 2008.

The January 2006 examination marked the third consecutive
examination in which Downey’s management component was
rated a 3. The resulting ROE, among other things, listed repeated
concerns and noted an unresponsive/resistant Downey
management. Instead of taking a formal enforcement action, OTS
required Downey to execute a board resolution, an informal
enforcement action requiring that (1) two new directors be added
to the board with the expectation that the new directors would
infuse more independence within the board, and (2) a task force be
created to conduct a study of Downey’s organizational and
management structure and provide recommendations to enhance
the structure.

When we asked why no formal enforcement action was taken
earlier with regards to safety and soundness issues, OTS West
Region personnel told us that OTS examiners are allowed flexibility
on whether to take aggressive action and may forgo such action if
they are confident in the board’s and management’s commitment
and ability to correct problems or weaknesses. They also told us
that OTS’s issuance of a formal enforcement action might have
hampered Downey’s ability to attract qualified board candidates,
since formal actions are publicly available information. OTS
examiners told us that they exercised their regulatory discretion in
taking informal rather than formal enforcement action.

We agree that OTS requiring Downey to add two additional
directors to the board was a strong action. Downey did add two
additional directors, and according to OTS officials, this did result
in improved performance and responsiveness by the board to
OTS’s supervision.




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 21
(OIG-09-039)
                       In July 2008, OTS published Regulatory Bulletin 37-23,
                       Administration, which replaced section 370 with section 080,
                       Enforcement Actions. One substantive change called for by the
                       bulletin related to guidance for enforcement actions against 3-rated
                       thrifts. As mentioned earlier, in section 370 of the handbook, there
                       was a presumption that OTS examiners were to issue a formal
                       enforcement action if certain circumstances existed, such as weak
                       management and lack of willingness by management to correct
                       deficiencies. Under the new section 080, there is now a
                       presumption for 3-rated thrifts that OTS examiners will issue an
                       informal enforcement action and consider issuing a formal
                       enforcement action in the circumstances specified. 8 The situation
                       at Downey by 2006 would have still warranted a formal
                       enforcement action under this new guidance, in our opinion.

                       OTS Appropriately Used Prompt Corrective Action

                       The purpose of PCA is to resolve the problems of insured
                       depository institutions at the least possible long-term loss to the
                       deposit insurance fund. PCA provides federal banking agencies with
                       the authority to take certain actions when an institution’s capital
                       drops to certain levels. PCA also gives regulators flexibility to
                       discipline institutions based on criteria other than capital to help
                       reduce deposit insurance losses caused by unsafe and unsound
                       practices.

                       In the September 2008 C&D order, OTS required Downey to meet
                       and maintain specific capital levels, and OTS deemed the thrift to
                       be adequately capitalized even though Downey’s capital level met
                       the definition of well-capitalized. While its capital level met the
                       definition of well-capitalized, OTS examiners stated in the 2008
                       ROE that capital was considered insufficient to fully support the
                       risk profile of Downey. Because of its adequately capitalized
                       designation, Downey was prohibited from accepting or renewing
                       brokered deposits unless it obtained a waiver from FDIC. Downey

8
  During our audit, we discussed with OTS officials why the change was made. The OTS officials
explained that the guidance in the Regulatory Bulletin 37-23 makes it more likely a 3 rated thrift will
have an enforcement action taken against it, rather than no enforcement action. The guidance retains
the prior language outlining factors to consider in determining whether a formal enforcement action is
warranted. We believe this explanation for the change is reasonable and note that examiners still can
take stronger action when circumstances warrant.

                       Material Loss Review of Downey Savings and Loan Association, F.A.          Page 22
                       (OIG-09-039)
           remained designated as adequately capitalized up to its failure on
           November 21, 2008. We conclude that OTS appropriately used its
           authority under PCA to reclassify Downey’s capital level to
           adequately capitalized and to prohibit the thrift from accepting or
           renewing brokered deposits.


Recommendation
           Our material loss review of Downey and a concurrent material loss
           review of PFF Bank and Trust are the fourth and fifth such reviews
           we have performed of failed OTS-regulated financial institutions
           during the current financial crisis. Appendix 6 lists the prior
           completed material loss reviews and our associated
           recommendations. OTS management agreed with the prior
           recommendations and has taken or is taking corrective actions to
           address them.

           As a result of our material loss review of Downey, we recommend
           that the Director of OTS ensure that the recommendations from
           OTS’s internal assessment of the Downey failure are implemented
           and the lessons learned described in that assessment are taken into
           account going forward. In this regard, OTS should direct examiners
           to closely review and monitor thrifts that refuse to establish
           appropriate limits for concentrations that pose significant risk and
           pursue corrective action when concentration limits are not
           reasonable. OTS should assess the need for more guidance for
           examiners on determining materiality of concentrations and
           determining appropriate examiner response to high-risk
           concentrations, including when to impose absolute limits to prevent
           excessive concentration. Additionally, OTS should formally
           communicate to the industry the guidance in ND Bulletin 06-14 as
           to OTS’s expectation that concentration measurements and limits
           be set as a percent of capital, not just as a percent of total assets
           or loans, and the need for a sound internal risk management
           system (including stress testing, regular periodic monitoring, and
           other risk management tools) for higher-risk concentrations.

           Management Response

           OTS concurred with our recommendation. OTS plans to issue
           further guidance regarding concentrations to both the thrift

           Material Loss Review of Downey Savings and Loan Association, F.A.   Page 23
           (OIG-09-039)
industry and OTS staff that will address asset and liability
concentration issues described in this report, as well as those that
have been identified internally by OTS. OTS plans to implement our
recommendation from this review by the end of the third quarter of
2009. The response is provided as appendix 7.

OIG Comment

OTS’s planned actions meet the intent of our recommendation.

                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-5776 or Jeff Dye, Audit Manager, at
(202) 927-0384. Major contributors to this report are listed in
appendix 8.




Susan L. Barron
Audit Director




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 24
(OIG-09-039)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Downey Savings and
                        Loan Association, F.A., (Downey) in response to our mandate
                        under section 38(k) of the Federal Deposit Insurance Act, as
                        amended. 9 This section provides that if a deposit insurance fund
                        incurs a material loss with respect to an insured depository
                        institution, the inspector general for the appropriate federal banking
                        agency is to prepare a report to the agency, that:

                        •   ascertains why the institution’s problems resulted in a material
                            loss to the insurance fund;
                        •   reviews the agency’s supervision of the institution, including its
                            implementation of the prompt corrective actions provisions of
                            section 38; and
                        •   makes recommendations for preventing any such loss in the
                            future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of Downey based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of May 8, 2009, FDIC’s estimated cost to the Deposit Insurance
                        Fund from Downey’s failure was $1.4 billion.

                        To accomplish our review, we conducted fieldwork at the Office of
                        Thrift Supervision’s (OTS) headquarters in Washington, D.C., and
                        OTS’s regional office in Daly City, California. We also met with
                        officials of FDIC’s Division of Supervision and Consumer Protection
                        in San Francisco, California, and interviewed FDIC’s Division of
                        Resolutions and Receiverships personnel. We conducted our
                        fieldwork from January 2009 through April 2009.

                        To assess the adequacy of OTS’s supervision of Downey, we
                        determined (1) when OTS first identified Downey’s safety and
                        soundness problems, (2) the gravity of the problems, and (3) the
                        supervisory response OTS took to get the thrift to correct the


9
    12 U.S.C. § 1831o(k).

                        Material Loss Review of Downey Savings and Loan Association, F.A.   Page 25
                        (OIG-09-039)
Appendix 1
Objectives, Scope, and Methodology




problems. We also assessed whether OTS (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following procedures:

    •   Based on reviews of the reports of examinations (ROE), we
        determined that Downey’s composite CAMELS rating was
        first downgraded to 3 during the 2006 examination. Based
        on a limited review of ROEs prior to this examination where
        the problems that led to the downgraded CAMELS
        composite rating were first identified by OTS, we established
        that the scope of our audit would be from 2002, three
        examinations prior to the 2006 examination, through 2008.
        We reviewed OTS’s supervisory files and records for
        Downey from 2002 through 2008. We analyzed ROEs,
        supporting workpapers, and related supervisory and
        enforcement correspondence. We performed these analyses
        to gain an understanding of the problems identified, the
        approach and methodology OTS used to assess the thrift’s
        condition, and the regulatory action used by OTS to compel
        thrift management to address deficient conditions. We did
        not conduct an independent or separate detailed review of
        the external auditor’s work or associated workpapers other
        than those incidentally available through the supervisory
        files.

    •   We interviewed and discussed various aspects of the
        supervision of Downey with OTS officials and examiners to
        obtain their perspective on the thrift’s condition and the
        scope of the examinations. We also interviewed FDIC
        officials who were responsible for monitoring Downey for
        federal deposit insurance purposes.

    •   We interviewed FDIC Division of Resolutions and
        Receiverships personnel who were involved in the
        receivership process, which was conducted before and after
        Downey’s closure and appointment of receiver.




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 26
(OIG-09-039)
Appendix 1
Objectives, Scope, and Methodology




    •   We reviewed Downey’s records obtained by FDIC Division of
        Resolutions and Receiverships and located at the former
        Downey headquarters in Newport Beach, California.

    •   We assessed OTS’s actions based on its internal guidance
        and the requirements of the Federal Deposit Insurance Act,
        at 12 U.S.C. § 1820 et seq.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 27
(OIG-09-039)
Appendix 2
Background




Downey History

Downey Savings and Loan Association, F.A., (Downey) was
formed in 1957 as a California state-chartered savings and loan
association. The home office moved to Newport Beach, California,
in 1990. The association converted to a federal charter in 1995.
As of September 30, 2008, Downey had 170 retail branches in
California and 5 branches in Arizona.

Downey Financial Corporation (DFC), which the Office of Thrift
Supervision (OTS) classified as a noncomplex holding company,
formed in 1994. DFC was a shell holding company that conducted
limited operations.

Downey operated a wholly-owned subsidiary, DSL Service
Company, a diversified real estate development company. In the
several years preceding Downey’s failure, DSL Service Company
had sold many of its assets at a net gain, the proceeds of which
were used to offset Downey’s losses and erosion of capital.

Appendix 4 contains a chronology of significant events regarding
Downey.

Types of Examinations Conducted by OTS

OTS conducts various types of examinations including safety and
soundness, compliance, and information technology.

OTS must conduct full-scope, onsite examinations of insured thrifts
once during a 12-month cycle or an 18-month cycle.

OTS conducts a full-scope examination of an insured thrift every
12-months until the thrift’s management has demonstrated its
ability to operate the institution in a safe and sound manner and
satisfied all conditions imposed at the time of approval.

The 18-month examination interval applies to insured thrifts that
have total assets of $250 million or less that:




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 28
(OIG-09-039)
Appendix 2
Background




    • received a CAMELS composite rating of 1 or 2 and a
      Compliance rating of 1 or 2 for their most recent
      examination;
    • received a CAMELS Management component rating of 1 or 2
      for their most recent examination;
    • are well-capitalized;
    • are not currently subject to a formal enforcement proceeding
      or order by OTS or FDIC; and
    • have not undergone a change in control during the 12-month
      period since completion of the last full-scope examination.

During a full-scope examination, examiners conduct an onsite
examination and rate all CAMELS components. OTS then assigns
each thrift a composite rating based on its assessment of the
overall condition and level of supervisory concern.

Enforcement Actions Available to OTS

OTS performs various examinations of thrifts that result in the
issuance of reports of examinations (ROE) identifying areas of
concern. OTS uses informal and formal enforcement actions to
address violations of laws and regulations and to address unsafe
and unsound practices.

Informal Enforcement Actions

When a thrift’s overall condition is sound, but it is necessary to
obtain written commitments from a thrift’s board of directors or
management to ensure that it will correct identified problems and
weaknesses, OTS may use informal enforcement actions. OTS
commonly uses informal actions for problems in

    •   well- or adequately-capitalized thrifts and
    •   thrifts with a composite rating of 1, 2, or 3.

Informal actions notify a thrift’s board and management that OTS
has identified problems that warrant attention. A record of informal
action is beneficial in case formal action is necessary later.

If a thrift violates or refuses to comply with an informal action,
OTS cannot enforce compliance in federal court or assess civil

Material Loss Review of Downey Savings and Loan Association, F.A.   Page 29
(OIG-09-039)
Appendix 2
Background




money penalties for noncompliance. However, OTS may initiate
more severe enforcement action against a noncompliant thrift. The
effectiveness of informal action depends in part on the willingness
and ability of a thrift to correct deficiencies that OTS notes.

Informal enforcement actions include supervisory directives,
memoranda of understanding, and board resolutions.

Formal Enforcement Actions

If informal tools do not resolve a problem that has been identified,
OTS is to use formal enforcement tools.

Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act, as amended. They are appropriate when a
thrift has significant problems, especially when there is a threat of
harm to the thrift, depositors, or the public. OTS is to use formal
enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to secure correction
of safety and soundness or compliance problems.

Because formal actions are enforceable, OTS can assess civil
money penalties against thrifts and individuals for noncompliance
with a formal agreement or final orders. OTS can also request a
federal court to require the thrift to comply with an order. Unlike
informal actions, formal enforcement actions are public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and prompt corrective action directives.

OTS Enforcement Guidelines

Considerations for determining whether to use informal action or
formal action include the following:

•   the extent of actual or potential damage, harm, or loss to the
    thrift because of the action or inaction;

•   whether the thrift has repeated the illegal action or unsafe or
    unsound practice;



Material Loss Review of Downey Savings and Loan Association, F.A.   Page 30
(OIG-09-039)
Appendix 2
Background




•   the likelihood that the conduct may occur again;

•   the thrift’s record for taking corrective action in the past;

•   the capability, cooperation, integrity, and commitment of the
    thrift’s management, board of directors, and ownership to
    correct identified problems;

•   the effect of the illegal, unsafe, or unsound conduct on other
    financial institutions, depositors, or the public;

•   the examination rating of the thrift;

•   whether the thrift’s condition is improving or deteriorating; and

•   the presence of unique circumstances.




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 31
(OIG-09-039)
                   Appendix 3
                   Glossary




Allowance for loan and             A valuation reserve established and maintained by
lease losses                       charges against the financial institution’s operating
                                   income. As a valuation reserve, it is an estimate of
                                   uncollectible amounts that is used to reduce the book
                                   value of loans and leases to the amount that is
                                   expected to be collected. These valuation allowances
                                   are established to absorb unidentified losses inherent
                                   in the institution’s overall loan and lease portfolio.

Board resolution                   A document designed to address one or more specific
                                   concerns identified by the Office of Thrift Supervision
                                   (OTS) and adopted by a thrift's board of directors.

CAMELS                             An acronym for performance rating components for
                                   financial institutions: Capital adequacy, Asset quality,
                                   Management administration, Earnings, Liquidity, and
                                   Sensitivity to market risk. Numerical values range from
                                   1 to 5, with 1 being the best rating and 5 being the
                                   worst. OTS uses the CAMELS rating system to
                                   evaluate a thrift’s overall condition and performance
                                   by assessing each of the six rating components and
                                   assigning numerical values. OTS then assigns each
                                   thrift a composite rating based on its assessment of
                                   the overall condition and level of supervisory concern.

Cease and desist order             A type of OTS formal enforcement action. A Cease
                                   and Desist (C&D) order normally requires the thrift to
                                   correct a violation of a law or regulation, or an unsafe
                                   or unsound practice. OTS may issue a C&D order in
                                   response to violations of federal banking, securities, or
                                   other laws by thrifts or individuals, or if it believes
                                   that an unsafe or unsound practice or violation is
                                   about to occur.


Compliance                         The part of a financial institution examination that
                                   includes an assessment of how well the institution
                                   manages compliance with consumer protection and
                                   public interest laws and regulations, including the
                                   Bank Secrecy Act.



                   Material Loss Review of Downey Savings and Loan Association, F.A.   Page 32
                   (OIG-09-039)
                     Appendix 3
                     Glossary




Concentration                        As defined by OTS, a group of similar types of assets
                                     or liabilities that, when aggregated, exceed 25 percent
                                     of a thrift’s core capital plus allowance for loan and
                                     lease losses. Concentrations may include direct,
                                     indirect, and contingent obligations or large purchases
                                     of loans from a single counterparty. Some higher-risk
                                     asset or liability types (e.g., residual assets) may
                                     warrant monitoring as concentrations even if they do
                                     not exceed 25 percent of core capital plus allowance
                                     for loan lease losses.

Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers. If loans are
                                     more broadly distributed, weaknesses confined to one
                                     or a small number of sectors, areas, or borrowers
                                     would pose a smaller risk to the institution’s financial
                                     health.

FICO score                           A credit score provided to lenders by a credit reporting
                                     bureau to reflect information that the bureau keeps on
                                     file about the borrower. A score is produced using
                                     software developed by the Fair Isaac Corporation
                                     (FICO). The software takes into consideration
                                     borrower information such as (1) timeliness of
                                     payments; (2) the length of time credit has been
                                     established; (3) the amount of credit used versus the
                                     amount of credit available; (4) the length of time at
                                     present residence; and (5) negative credit information
                                     such as bankruptcies, charge-offs, and collections.
                                     The higher the credit score is, the lower the risk to the
                                     lender.

Field visit                          A visit conducted to review specific areas of concern
                                     that OTS has about an institution.

Hedging                              A strategy designed to reduce investment risk. A
                                     hedge can help lock in existing profits. Its purpose is
                                     to reduce the volatility of a portfolio, by reducing the
                                     risk of loss.


                     Material Loss Review of Downey Savings and Loan Association, F.A.   Page 33
                     (OIG-09-039)
                      Appendix 3
                      Glossary




Loan-to-value ratio                   A ratio for a single loan and property calculated by
                                      dividing the total loan amount at origination by the
                                      market value of the property securing the credit plus
                                      any readily marketable collateral or other acceptable
                                      collateral. In accordance with Interagency Guidelines
                                      for Real Estate Lending Policies (app. to 12 C.F.R.
                                      560.101), institutions’ internal loan-to-value limits
                                      should not exceed (1) 65 percent for raw land;
                                      (2) 75 percent for land development; and
                                      (3) 80 percent for commercial, multifamily, and other
                                      nonresidential loans. The guidelines do not specify a
                                      limit for owner-occupied one- to four-family properties
                                      and home equity loans. However, when the loan-to-
                                      value ratio on such a loan equals or exceeds
                                      90 percent at the time of origination, the guidelines
                                      state that the thrift should require mortgage insurance
                                      or readily marketable collateral.

Matters requiring                     A practice noted during an OTS examination of
board attention                       a thrift that deviates from sound governance, internal
                                      control, and risk management principles. The matter,
                                      if not addressed, may adversely affect the thrift’s
                                      earnings or capital, risk profile, or reputation or may
                                      result in substantive noncompliance with laws 0r
                                      regulations, internal policies or processes, OTS
                                      supervisory guidance, or conditions imposed in writing
                                      in connection with the approval of any application or
                                      other request by the institution. Although matters
                                      requiring board attention are not formal enforcement
                                      actions, OTS requires that thrifts address them.
                                      A thrift’s failure to do so may result in a formal
                                      enforcement action.

Mortgage broker                       An intermediary that brings mortgage borrowers and
                                      mortgage lenders together but does not use its own
                                      funds to originate mortgages. A mortgage broker
                                      gathers paperwork from a borrower and passes it
                                      along to a mortgage lender for underwriting and
                                      approval. The mortgage funds are then lent in the
                                      name of the mortgage lender. A mortgage broker


                      Material Loss Review of Downey Savings and Loan Association, F.A.   Page 34
                      (OIG-09-039)
                    Appendix 3
                    Glossary




                                    collects an origination fee and/or a yield spread
                                    premium from the lender as compensation for its
                                    services. A mortgage broker differs from a mortgage
                                    banker, which closes and funds a mortgage with its
                                    own funds. Mortgage brokers frequently facilitate
                                    transactions for mortgage bankers.

Mortgage servicing asset            The segment of a mortgage that is held by a mortgage
                                    servicer. Mortgages have two asset components: (1) a
                                    loan that can be sold as a mortgage-backed security
                                    to the wholesale market and (2) a servicing segment.
                                    Servicing a mortgage consists of collecting payments
                                    on the loan and distributing them to the loan investor.
                                    Mortgage servicers derive revenue by providing these
                                    services. The servicing segments of loans have a
                                    specific value and are therefore considered assets.

Nonaccrual assets                   A loan in which interest accruals have been
                                    suspended because full collection of principal is in
                                    doubt, or interest payments have not been made for a
                                    sustained period of time.

Payment shock                       A very large increase in the payment on an adjustable
                                    rate mortgage, resulting in potential inability of the
                                    borrower to afford the payment

Prompt Corrective Action            A framework of supervisory actions, set forth in
                                    12 U.S.C. §1831o, for insured depository institutions
                                    that are not adequately capitalized. It was intended to
                                    ensure that action is taken when an institution
                                    becomes financially troubled in order to prevent a
                                    failure or minimize resulting losses. These actions
                                    become increasingly severe as a thrift falls into lower
                                    capital categories. The capital categories are well-
                                    capitalized, adequately capitalized, undercapitalized,
                                    significantly undercapitalized, and critically
                                    undercapitalized. The prompt corrective action
                                    minimum requirements are as follows:




                    Material Loss Review of Downey Savings and Loan Association, F.A.   Page 35
                    (OIG-09-039)
                     Appendix 3
                     Glossary




                                       Total                Tier 1/             Tier 1/
               Capital Category        Risk-Based           Risk-               Leverage
                                                            Based
                                        10% or          and 6% or          and 5% or greater
               Well capitalizeda
                                        greater               greater
               Adequately               8% or           and 4% or          and 4% or greater
               capitalized              greater               greater            (3% for 1-rated)
                                        Less            or    Less         or    Less than 4% (except
               Undercapitalized
                                        than 8%               than 4%            for 1-rated)
               Significantly            Less            or    Less         or    Less than 3%
               undercapitalized         than 6%               than 3%
                                        Has a ratio of tangible equity to total assets that is equal
               Critically
                                        to or less than 2 percent. Tangible equity is defined in
               undercapitalized
                                        12 C.F.R. § 565.2(f).
               a
                 To be well-capitalized, a thrift also cannot be subject to a higher capital requirement
               imposed by OTS.

Real estate owned property           Real property that a thrift holds as a consequence of
                                     defaults on loans. Such property is typically a poor or
                                     nonearning asset. A thrift’s acquisition of a limited
                                     amount of real estate owned property is an
                                     unavoidable result of normal business operations.

Risk-based capital ratios            These prompt corrective action ratios consist of Tier 1
                                     risk-based capital ratio (Tier 1 capital to risk-weighted
                                     assets) and total risk-based capital ratio (ratio of total
                                     capital to risk-weighted assets). These ratios are used
                                     to determine the thrift’s capital category as shown
                                     above.

Risk-weighted asset                  An asset rated by risk to establish the minimum
                                     amount of capital that is required within institutions.
                                     To weight assets by risk, an institution must assess
                                     the risk associated with the loans in its portfolio.
                                     Institutions whose portfolios hold more risk require
                                     more capital.

Safety and soundness                 The part of an examination that includes a review and
                                     evaluation of each of the component CAMELS ratings
                                     (see explanation of CAMELS, above).




                     Material Loss Review of Downey Savings and Loan Association, F.A.            Page 36
                     (OIG-09-039)
                     Appendix 3
                     Glossary




Single-family residential            A residential structure designed to include one
                                     dwelling that shares no common ground with
                                     neighboring properties.

Tier 1 (core) capital                An amount consisting of common shareholder’s equity
                                     (common stock, surplus, and retained earnings),
                                     noncumulative perpetual preferred stock, and minority
                                     interests in the equity accounts of consolidated
                                     subsidiaries. In accordance with the Financial
                                     Institutions Reform, Recovery, and Enforcement Act
                                     of 1989, OTS requires that Tier 1 capital represent 4
                                     percent of total assets, or 3 percent for thrifts with a
                                     CAMELS composite rating of 1, adjusted for
                                     investment in subsidiaries, gains and losses on
                                     available-for-sale securities, and certain hedges.

Troubled condition                   A condition in which a thrift meets any of the criteria
                                     below:

                                     •   OTS notifies it in writing that it has been assigned
                                         a composite CAMELS rating of 4 or 5.
                                     •   It is subject to a capital directive, a C&D order, a
                                         consent order, a formal written agreement, or a
                                         prompt corrective action directive relating to its
                                         safety and soundness or financial viability.
                                     •   OTS informs it, in writing, of its troubled condition
                                         based on information available to OTS. Such
                                         information may include current financial
                                         statements and reports of examination.




                     Material Loss Review of Downey Savings and Loan Association, F.A.   Page 37
                     (OIG-09-039)
                      Appendix 4
                      Chronology of Significant Events




The following chronology describes significant events in the history of Downey
Savings and Loan Association, F.A. (Downey), including examinations conducted and
enforcement actions taken by the Office of Thrift Supervision (OTS).

10/1/1957 The thrift is formed as a California-licensed savings and loan association.

10/21/1994 Downey Financial Corporation (DFC), Downey’s holding company, is
           incorporated in Delaware.

1995          The thrift is converted into a federal savings and loan association.

2/9/1998      OTS issues a report of examination (ROE) expressing concern with rising
              negative amortization loans. In the report, OTS requires Downey to
              underwrite subprime loans at the fully indexed rate to decrease the risk
              that the borrower will default on the loan once the payments increase
              after the initial rate period.

3/26/1999 OTS issues a ROE expressing concern with rising negative amortization
          and subprime loans. OTS notes that increased risk warrants annual
          revalidation of internal capital target policies for Tier 1 leverage capital
          and total risk-based capital.

6/30/2000 OTS issues a ROE directing Downey’s board to change $1.2 billion of
          negative amortization loans from 50 percent risk-weight to 100 percent
          risk-weight because they had loan-to-value (LTV) ratios in excess of 80
          percent. OTS also directed Downey not to make additional negative
          amortization loans because the thrift’s balance of loans with LTV ratios in
          excess of 90 percent exceeded OTS’s supervisory LTV limits.

9/18/2000 OTS examiners rescind both corrective actions from the June 30, 2000
          ROE after concluding that Downey’s appeal of those corrective actions
          would likely be granted. Downey, as a result, continues to make negative
          amortization loans. 10




10
  Downey appealed the decision to OTS headquarters and the decision was eventually overturned. TB-
68, Supervisory Review, Appeal and Reconsideration Process and Ombudsman Matters, provides a
process for the review and appeal of OTS supervisory decisions and examination findings,
reconsideration of OTS application decisions, and utilization of the OTS Ombudsman. TB-68 was
subsequently amended by TB-68a on June 10, 2004 with minor revisions.

                      Material Loss Review of Downey Savings and Loan Association, F.A.     Page 38
                      (OIG-09-039)
                      Appendix 4
                      Chronology of Significant Events




12/14/2001 OTS issues a ROE requiring special quarterly reporting of negative
           amortization and subprime loans. OTS uses interagency guidance on
           subprime lending in assessing this area during the examination. 11

12/2/2002 OTS begins an examination of Downey that is completed on March 13,
          2003 resulting CAMELS ratings of 2/222223. Downey meets the
          regulatory capital standard for a well-capitalized designation.

1/16/2003 DFC’s external auditor issues an unqualified audit opinion on DFC’s
          consolidated financial statements as of December 31, 2002.

4/14/2003 OTS issuing a ROE with matters requiring board attention (MRBA) that
          mandates all subprime loans include 1.5 times the risk-weighted factor
          and requiring that Downey expand its loss analysis modeling and portfolio
          monitoring.

1/12/2004 OTS, joined by FDIC, begins an examination of Downey that is completed
          on April 1, 2004 resulting in CAMELS ratings of 2/223223. Downey
          meets the regulatory capital standard for a well-capitalized designation.

1/16/2004 DFC’s external auditor issues an unqualified audit opinion on DFC’s
          consolidated financial statements as of December 31, 2003.

1/23/2004 A new president/chief executive officer (CEO) for Downey is named.

4/22/2004 OTS issues a ROE for Downey with the management component
          CAMELS rating downgraded to a 3 and includes a MRBA requiring
          support regarding the analysis of capital for loans with negative
          amortization features and reduced documentation requirements.

6/23/2004 A new chief credit officer for Downey is appointed.

8/26/2004 The President/CEO for Downey, named 8 months earlier, is terminated.

8/31/2004 The Chief Credit Officer for Downey, named 2 months earlier, resigns.


11
  The Board of Governors of the Federal Reserve System, Federal Deposit Insurance Corporation (FDIC),
Office of the Comptroller of the Currency, and OTS jointly issued Interagency Guidance on Subprime
Lending, on March 1, 1999. This guidance was intended to remind banks of the risks inherent in
subprime lending and to outline the types of controls banks should have in place when engaging in this
type of lending.

                      Material Loss Review of Downey Savings and Loan Association, F.A.        Page 39
                      (OIG-09-039)
                  Appendix 4
                  Chronology of Significant Events




9/17/2004 A new chief financial officer for Downey is named.

9/30/2004 The director of portfolio management and secondary marketing for
          Downey resigns.

11/17/2004 A new director of secondary marketing is named.

1/3/2005    OTS, joined by FDIC, begins an examination of Downey that is completed
            on March 18, 2005 resulting in CAMELS ratings of 2/223223. Downey
            meets the regulatory capital standard for a well-capitalized designation.

3/1/2005    DFC’s external auditor issues an unqualified audit opinion on DFC’s
            consolidated financial statements as of December 31, 2004.

4/27/2005 OTS issues a ROE requiring Downey to further support its capital
          assessment and develop a plan to address weaknesses in management
          structure and information technology and personnel resource shortages.

5/25/2005 A new chief credit officer for Downey is named.

1/3/2006    OTS, joined by FDIC, begins an examination of Downey that is completed
            on April 6, 2006 resulting in CAMELS ratings of 3/233223. Downey
            meets the regulatory capital standard for a well-capitalized designation.

2/28/2006 DFC’s external auditor issues an unqualified audit opinion on DFC’s
          consolidated financial statements as of December 31, 2005.

3/8/2006    A new Chief Financial Officer for Downey is named.

5/16/2006 OTS issues the ROE for the examination of Downey that begun on
          January 3, 2006 and downgrades Downey’s composite CAMELS rating
          from a 2 to a 3 as a result of increasing concerns with risks of option
          adjustable rate mortgages (ARM) and continuing management
          deficiencies, including weaknesses in board oversight and management
          instability.

6/9/2006    Downey’s board met to discuss May 16, 2006 ROE findings. OTS
            provides the board with a board resolution that adds two independent
            directors and creates a special task force to evaluate Downey’s
            management structure.



                  Material Loss Review of Downey Savings and Loan Association, F.A.   Page 40
                  (OIG-09-039)
                   Appendix 4
                   Chronology of Significant Events




7/28/2006 OTS receives a signed copy of the board-approved resolution.

10/16/2006 OTS, joined by FDIC, conducts a special field visit to follow up on
           corrective actions from the January 3, 2006 examination.

11/3/2006 Two new independent directors join the board to comply with the board
          resolution; a chief risk officer position is created and filled as well.

12/14/2006 OTS receives a final copy of the board’s special task force report. The
           report includes recommendations to enhance strategic planning,
           succession planning, retention planning, and expansion of the senior
           management team.

12/27/2006 OTS sends a letter to Downey summarizing the findings of the
           October 16, 2006 special field visit and indicating that all corrective
           actions in the January 3, 2006, ROE had been resolved.

2/28/2007 DFC’s external auditor issues an unqualified audit opinion on DFC’s
          consolidated financial statements as of December 31, 2006.

3/5/2007     OTS, joined by FDIC, begins an examination of Downey that is completed
             on August 2, 2007 resulting in CAMELS ratings of 3/233222. Downey
             meets the regulatory capital standard for a well-capitalized designation.

8/30/2007 OTS issues a cease and desist (C&D) order against Downey. The C&D
          order is based on Bank Secrecy Act deficiencies identified during the
          examination.

10/1/2007 A new position of president is created for Downey and filled as required
          by OTS.

2/28/2008 DFC’s external auditor issues an unqualified audit opinion on DFC’s
          consolidated financial statements as of December 31, 2007.

3/10/2008 OTS, joined by FDIC, begins an examination of Downey that is completed
          on July 23, 2008 resulting in CAMELS ratings of 4/444443. Downey
          meets the regulatory capital standard for a well-capitalized designation.

4/29/2008 At a quarterly meeting, OTS recommends that Downey’s chairman, CEO,
          and president hire an investment banker and actively search for capital in



                   Material Loss Review of Downey Savings and Loan Association, F.A.   Page 41
                   (OIG-09-039)
                   Appendix 4
                   Chronology of Significant Events




            advance of a possible ratings downgrade and potential enforcement
            action.

6/1/2008    DFC contributes $50 million in capital to Downey.

6/25/2008 Downey’s president, named 10 months earlier, is terminated.

7/2008      Downey hires an investment banker in an effort to market the thrift to
            obtain more capital.

7/15/2008 OTS designates Downey as in “troubled condition” as a result of
          examination findings.

7/24/2008 Downey’s chairman and CEO resign from Downey to remove obstacles to
          a possible sale or merger of the bank.

7/29/2008 OTS presents the Downey board with a proposed C&D order that
          incorporates heightened capital ratios and a timeline to raise capital.

9/5/2008    OTS issues C&D orders to Downey and DFC. The C&D order to Downey
            requires Downey to (1) meet and maintain minimum capital levels of Tier
            1 core capital of 7 percent and total risk based capital of 14 percent
            (regulatory minimum requirements are 6 percent and 10 percent,
            respectively); (2) update its capital augmentation and strategy plan;
            (3) adopt and submit for OTS review a classified asset reduction plan;
            (4) adopt and submit for OTS review a real estate owned disposition plan;
            (5) submit for review a management plan; (6) review, approve, and
            submit for OTS review a long-term business plan; (7) adequately address
            all corrective actions set forth in the March 10, 2008, ROE; (8) not
            increase its total assets during any quarter beginning with the quarter
            ending June 30, 2008; (9) and not resume payment option ARM or
            stated income lending.

            The C&D order to DFC requires DFC to (1) neither accept nor request that
            Downey make or pay any dividends; (2) comply with prior notification
            requirements for changes in directors and senior executive officers; (3)
            not enter into, renew, extend, or revise any contractual arrangement
            relating to compensation or benefits for any senior executive officer or
            director of the holding company unless it first provides OTS 30 days prior
            written notice; (4) not make any golden parachute payment or prohibited
            indemnification payment; (5) not incur, issue, renew or rollover any debt,


                   Material Loss Review of Downey Savings and Loan Association, F.A.   Page 42
                   (OIG-09-039)
                   Appendix 4
                   Chronology of Significant Events




            increase any current lines of credit, or guarantee the debt of any entity
            without at least 30 days prior written notice to and receipt of non-
            objection from OTS; and (6) ensure that Downey complies with all of the
            terms of its C&D order.

9/22/2008 A new CEO is named in accordance with the C&D order.

9/29/2008 OTS, joined by FDIC, begins an examination to determine Downey’s
          compliance with of the C&D order. No examination report is issued as the
          thrift is closed before completion of the examination.

10/20/2008 Downey submits a business plan to OTS as required by the C&D order.
           The business plan calls for Downey to seek a buyer for itself while
           managing its liquidity position, significantly reducing new lending,
           reducing problem assets, and reducing concentrations in option ARMs
           and stated income loans.

10/28/2008 DFC files an application with the Capital Purchase Program under the
           Department of the Treasury’s Troubled Assets Relief Program authorized
           by the Emergency Economic Stabilization Act of 2008. DFC seeks $214
           million in capital. The request is filed contingent upon DFC entering into
           (1) a definitive agreement relative to recapitalization of the company or
           (2) a definitive merger agreement.

10/30/2008 Downey’s CEO, chairman, and investment banker representatives attend
           a meeting requested by OTS headquarters in Washington, DC, to discuss
           its efforts to raise capital. The CEO states that Downey has exhausted
           possibilities for a private solution. OTS contacts FDIC’s Division of
           Receiverships and Resolutions following the meeting to accelerate
           marketing of the institution.

11/17/2007 OTS rejects the business plan submitted by Downey on October 20,
           2008. OTS downgrades Downey’s CAMELS composite rating to a 5 and
           requests Downey’s board sign the Consent to Appointment of Receiver.

11/20/2008 OTS downgrades DFC’s CAMELS composite rating to a 5.

11/21/2008 Downey is closed by OTS, and FDIC is appointed as receiver.




                   Material Loss Review of Downey Savings and Loan Association, F.A.   Page 43
                   (OIG-09-039)
                Appendix 5
                OTS Downey Examinations and Enforcement Actions




                This appendix lists all Office of Thrift Supervision (OTS) safety and
                soundness examinations of Downey beginning December 2002
                until the thrift’s failure in November 2008 and provides information
                on the significant results of those examinations. Generally, matters
                requiring board attention represent the most significant items
                requiring corrective action found by the examiners.

Date                       Assets     Significant safety and soundness matters
examination   CAMELS            (in   requiring board attention and corrective         Enforcement
started       rating      millions)   actions cited in reports of examinations         action
12/2/2002     2/222223    $12,500     Matters requiring board attention                None
                                      • Capital – Provide the results of the
                                        subprime portfolio loss analysis and
                                        verify that management is risk-weighting
                                        subprime loans at the higher of the
                                        analysis factor or the minimum 1.5 times
                                        set forth in interagency guidance.
                                      • Management – Provide OTS with the
                                        internal analysis completed by
                                        management that: (1) improve the bank’s
                                        loss analysis capability; (2) better project
                                        loss exposure in the various single-family
                                        residential loan products being offered;
                                        and (3) establish risk-based capital
                                        requirements based on expected loss
                                        exposure relative to prime loans.
                                      • Sensitivity to Market Risk – Provide a
                                        copy of the cost/benefit analysis used to
                                        support management’s ongoing decision
                                        not to hedge the mortgage servicing
                                        asset (MSA).

                                      Other corrective actions
                                      • Capital – Thoroughly assess the loss
                                        potential inherent in the subprime
                                        portfolio, and use this analysis as a basis
                                        for allocating capital according to risk.
                                        Submit the results of your analysis that
                                        indicates the risk weight to be applied to
                                        subprime loans of varying levels of risk.
                                        Pending such assessment, risk weight
                                        single-family residential subprime loans
                                        for risk-based capital purposes at a
                                        minimum of 1.5 times the risk-weight
                                        required for prime single-family residential


                Material Loss Review of Downey Savings and Loan Association, F.A.             Page 44
                (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective         Enforcement
started       rating     millions)   actions cited in reports of examinations         action
                                         loans.
                                     •   Capital – Deduct construction loans to
                                         DSL Service Company /Robinhood Ridge
                                         and DSL/McMillin Morgan Hill from Tier 1
                                         Core Capital, in the same manner as
                                         advances and/or investments in a non-
                                         includable subsidiary are deducted from
                                         regulatory capital.
                                     •   Asset Quality – Properly identify
                                         subprime loan to facilitate borrowers in
                                         accordance with internal guidelines, and
                                         ensure that subprime loan pricing is used
                                         in the loan to facilitate discounting
                                         methodology.
                                     •   Asset Quality – Amend the internal asset
                                         review policy to clearly establish the
                                         independence of the internal asset review
                                         function.
                                     •   Asset Quality – Continue refining loss
                                         analysis as well as loan monitoring and
                                         administration reports to timely identify
                                         and respond to relevant trends, including
                                         the need to make appropriate
                                         adjustments in underwriting, servicing,
                                         and other lending functions.
                                     •   Management – Develop loss modeling
                                         capability to better assess and
                                         differentiate the loss potential in the
                                         various loan products being offered,
                                         including the various grades of subprime
                                         loans that negatively amortize, and loans
                                         with reduced documentation
                                         requirements.
                                     •   Management – Beyond the requirements
                                         for subprime loans, risk weight negative
                                         amortization and limited documentation
                                         loans according to their loss potential as
                                         determined by the internal analysis.
                                     •   Sensitivity to Market Risk – Ensure
                                         completion of a comprehensive
                                         cost/benefit analysis that justifies the
                                         bank’s strategy to leave the MSA un-
                                         hedged.


               Material Loss Review of Downey Savings and Loan Association, F.A.           Page 45
               (OIG-09-039)
                Appendix 5
                OTS Downey Examinations and Enforcement Actions




Date                       Assets     Significant safety and soundness matters
examination   CAMELS            (in   requiring board attention and corrective         Enforcement
started       rating      millions)   actions cited in reports of examinations         action
                                      •   Sensitivity to Market Risk – Incorporate
                                          the exposure to rising interest rates into
                                          the comprehensive loss assessment
                                          discussed elsewhere in this report.

1/12/2004     2/223223    $11,600     Matters requiring board attention                 None
                                      • Capital – Submit results of the analysis
                                        that indicates the risk-weight to be
                                        applied to the subprime single-family loan
                                        portfolio based on varying levels of risk.
                                      • Management – Provide information
                                        regarding the analysis of capital for loans
                                        with negative amortization features and
                                        reduced documentation requirements.
                                      • Management – Describe steps taken to
                                        develop a fair lending self-assessment
                                        program appropriate to the bank’s fair
                                        lending risk profile.
                                      • Management – Advise of the actions
                                        taken to ensure that risk limits and
                                        approval conditions are monitored and
                                        that management policies and limits will
                                        be followed.
                                      • Sensitivity – Provide information
                                        regarding the establishment of mortgage
                                        banking hedge limits.
                                      • Sensitivity – Describe the actions taken
                                        to reduce the variance allowance
                                        between the internal and external
                                        valuations of the MSA. Also, describe the
                                        hedge parameters or management
                                        triggers established relative to the MSA
                                        and earnings at risk.

                                      Other corrective actions
                                      • Capital – Identify the additional risks
                                        associated with the subprime loan
                                        portfolio, and allocate capital according
                                        to risk.
                                      • Asset Quality – Ensure that appraisals
                                        requiring a prospective future value upon
                                        completion of construction of
                                        improvements are developed with a


                Material Loss Review of Downey Savings and Loan Association, F.A.           Page 46
                (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective         Enforcement
started       rating     millions)   actions cited in reports of examinations         action
                                         discounting methodology that complies
                                         with OTS appraisal requirements.
                                     •   Management – Analyze the loan portfolio
                                         to determine if additional capital is
                                         needed for loans with negative
                                         amortization features and loans
                                         originated with limited documentation
                                         standards, including Downey Express
                                         loans.
                                     •   Management – Improve fair lending self-
                                         assessments and ensure adequate
                                         resources and training are provided.
                                     •   Management – Comply with board and
                                         management policies and limits, and
                                         ensure appropriate actions are taken
                                         when significant deviations occur.
                                     •   Management – Eliminate inconsistencies
                                         between policies adopted by the board
                                         and the operating policies and procedures
                                         established by management.
                                     •   Management – Further enhance credit
                                         administration and risk management
                                         reports and procedures.
                                     •   Earnings – Develop a comprehensive
                                         strategic plan that addresses long-range
                                         operating goals and objectives.
                                     •   Liquidity – Remove outdated regulatory
                                         citations from the Treasury policies and
                                         procedures.
                                     •   Sensitivity to Market Risk – Model the
                                         risks derived from the mortgage banking
                                         operations so it is consistent with the
                                         risk profile produced by the Quantitative
                                         Risk Management (QRM) model.
                                         Incorporate the QRM rate shock analysis
                                         into the internal modeling process.
                                         Additionally, obtain market value
                                         estimates for the MSA under additional
                                         rate shock scenarios and reflect those
                                         estimates in the internal model results.
                                     •   Sensitivity to Market Risk – Ensure that
                                         required pre-purchase analysis is
                                         performed for significant transactions and


               Material Loss Review of Downey Savings and Loan Association, F.A.           Page 47
               (OIG-09-039)
                Appendix 5
                OTS Downey Examinations and Enforcement Actions




Date                       Assets     Significant safety and soundness matters
examination   CAMELS            (in   requiring board attention and corrective      Enforcement
started       rating      millions)   actions cited in reports of examinations      action
                                     that significant strategies are
                                     documented as evidence of ongoing
                                     performance/effectiveness to intended
                                     objectives. Also, ensure that risk limits
                                     and conditions of approval are monitored
                                     and not violated without appropriate
                                     authorization.
                                   • Sensitivity to Market Risk – Establish
                                     mortgage banking hedge limits to reflect
                                     how the mortgage pipeline and
                                     warehouse loan positions are managed
                                     and how the market risks are measured
                                     via the QRM model (i.e., inside plus or
                                     minus 100 basis points rate shock and/or
                                     benchmark equivalent price sensitivity).
                                   • Sensitivity to Market Risk – Reduce the
                                     MSA valuation variance allowance
                                     between the internal and average of the
                                     independent valuations that is currently
                                     at 10 percent.
                                   • Sensitivity to Market Risk – Enhance the
                                     hedge parameters or management
                                     triggers related to the risk exposure of
                                     the MSA to include risk limits or
                                     management triggers that address
                                     earnings at risk.
                                  • Compliance – Complete the development
                                     of a fair lending self-assessment program
                                     appropriate to the bank’s fair lending risk
                                     profile.
1/3/2005      2/223223    $15,650 Matters requiring board attention                 None
                                   • Capital – Describe the changes made to
                                     the bank’s methodology for calculating
                                     the capital component for subprime
                                     loans. Include the results of the revised
                                     methodology.
                                   • Asset Quality – Indicate the status of
                                     management’s efforts to address credit
                                     underwriting and credit administration
                                     weaknesses and develop a system to
                                     document deviations from underwriting
                                     guidelines.
                                   • Management – Provide a summary of the



                Material Loss Review of Downey Savings and Loan Association, F.A.          Page 48
                (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective         Enforcement
started       rating     millions)   actions cited in reports of examinations         action
                                         results of a comprehensive review of
                                         staffing, systems, and controls. Include a
                                         description of the actions taken or
                                         planned to address any identified
                                         weaknesses.
                                     •   Management – Describe specific actions
                                         taken to address conflict of interest
                                         situations involving members of the
                                         board.
                                     •   Management – Provide information on
                                         the corrective action plan to implement
                                         the Office of Foreign Assets Control
                                         (OFAC) customer database scans
                                         processes and detail the specific steps
                                         taken to ensure that OFAC database
                                         scans are conducted no less frequently
                                         than monthly once the new software is
                                         installed.
                                     •   Earnings – Submit a copy of the revised
                                         strategic plans for both a one-year and
                                         three-year horizon.
                                     •   Liquidity – Describe the actions taken to
                                         ensure that investment activity is
                                         conducted within the parameters of
                                         board approved policies and procedures.
                                     •   Sensitivity to Market Risk – Describe the
                                         steps taken to develop a comprehensive
                                         market risk framework, which includes
                                         effective policies and procedures,
                                         appropriate risk measures, standards and
                                         limits.

                                     Other corrective actions
                                     • Capital – Develop or adopt a more
                                       comprehensive methodology for
                                       calculating the capital component for
                                       subprime loans.
                                     • Capital – Ensure that the bank’s internal
                                       capital adequacy analysis incorporates all
                                       of the various factors of the bank’s loan
                                       portfolio risk, including credit
                                       administration weaknesses and human
                                       resource/system limitations identified


               Material Loss Review of Downey Savings and Loan Association, F.A.           Page 49
               (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective          Enforcement
started       rating     millions)   actions cited in reports of examinations          action
                                         elsewhere in this report.
                                     •   Asset Quality – Devise a servicing
                                         contingency plan for the potential onset
                                         of adverse business conditions that
                                         establishes triggers to implement
                                         allocation of additional resources at the
                                         onset of asset quality deterioration.
                                     •   Asset Quality – Provide additional
                                         support for factors utilized in allowance
                                         for loan and lease losses (ALLL) analysis
                                         that includes qualitative adjustments due
                                         to the unseasoned portfolio.
                                     •   Asset Quality – Enhance the policy for
                                         cash equity investments (major loans)
                                         that requires documentation of cash
                                         equity or substitution of appraised equity.
                                     •   Asset Quality – Enhance the policy for
                                         documentation of discount rates utilized
                                         on development projects.
                                     •    Asset Quality – Enhance the review of
                                         guidelines noted in credit review that:
                                           o Addresses emerging trends and
                                             provides useful feedback to
                                             originators
                                           o Establishes acceptable risk tolerance
                                             limits
                                           o Ranks guideline and other exceptions
                                             by risk severity.
                                     •   Asset Quality – Continue to monitor
                                         mortgage insurance concentration
                                         exposure.
                                     •   Asset Quality – Provide OTS with the
                                         status of management’s efforts to
                                         address the credit underwriting and credit
                                         administration weaknesses noted in
                                         OTS’s report.
                                     •   Asset Quality – Create a system to
                                         document deviations from underwriting
                                         guidelines and monitor performance of
                                         loans with guideline exceptions from the
                                         remaining portfolio.
                                     •   Asset Quality – Implement procedures to
                                         ensure compliance with the guidance


               Material Loss Review of Downey Savings and Loan Association, F.A.            Page 50
               (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective          Enforcement
started       rating     millions)   actions cited in reports of examinations          action
                                         contained within Financial Accounting
                                         Standards 91, Accounting for
                                         Nonrefundable Fees and Costs
                                         Associated with Originating or Acquiring
                                         Loans and Initial Direct Costs of Leases.
                                     •   Asset Quality - Detail your discussions
                                         and intentions as it relates to our
                                         suggestion for consideration of the
                                         establishment of an independent Chief
                                         Credit Officer.
                                     •   Management – Conduct a bank-wide
                                         review of staffing levels, information and
                                         data systems, and controls.
                                     •   Management – Develop procedures to
                                         ensure compliance with applicable
                                         conflict of interest rules and regulations.
                                     •   Management – Develop an action plan to
                                         implement the OFAC customer database
                                         scans processes and detail the specific
                                         steps taken to ensure that OFAC
                                         database scans are conducted no less
                                         frequently than monthly once the new
                                         software is installed.
                                     •   Earnings – Complete the comprehensive
                                         strategic plan that addresses long-range
                                         operating goals and objectives.
                                     •   Liquidity – Revise board resolutions and
                                         Treasury policies as necessary for clarity
                                         and ensure that practice conforms to
                                         policy.
                                     •   Liquidity – Ensure investment practices
                                         are consistent with Thrift Bulletin 13a –
                                         Management of Interest Rate Risk,
                                         Investment Securities, and Derivatives
                                         Activities.
                                     •   Sensitivity to Market Risk – Address the
                                         examination findings as detailed in the
                                         following memorandums provided during
                                         the examination:
                                              o Market Risk Framework and Net
                                                  Present Value Modeling dated
                                                  February 24, 2005.
                                              o Interest Rate Risk – Net Interest


               Material Loss Review of Downey Savings and Loan Association, F.A.            Page 51
               (OIG-09-039)
                Appendix 5
                OTS Downey Examinations and Enforcement Actions




Date                       Assets     Significant safety and soundness matters
examination   CAMELS            (in   requiring board attention and corrective        Enforcement
started       rating      millions)   actions cited in reports of examinations        action
                                                Income Analysis dated
                                                February 23, 2005
                                             o Mortgage Pipeline and Mortgage
                                                Servicing Rights Policy dated
                                                February 23, 2005.
                                      • Sensitivity to Market Risk – Monitor
                                        quarterly the composition and effective
                                        duration of the bank’s liabilities compared
                                        to Cost of Funds Index.
                                      • Sensitivity to Market Risk - Ensure that
                                        Thrift Bulletin 13a is adhered to when
                                        completing significant loan sales from the
                                        held for investment portfolio.
                                      • Compliance – Refer to corrective actions
                                        in the Management section of the OTS
                                        report.

1/3/2006      3/233223    $17,100     Matters requiring board attention               Board
                                      • Capital – Advise OTS of the steps taken       Resolution
                                        to improve capital modeling for subprime,     7/28/2006.
                                        negative amortization, and low                This
                                        documentation loans.                          informal
                                      • Capital – Establish more appropriate          action OTS
                                        minimum capital ratios commensurate           provides for
                                        with the bank’s risk profile and business     the addition
                                        plan and confirm that the internal            of two
                                        minimum core capital ratio is 6.75            independent
                                        percent.                                      directors
                                      • Asset Quality – Describe the actions          and the
                                        taken to implement each of the                creation of a
                                        corrective actions required in the Asset      special task
                                        Quality section of the OTS report.            force to
                                      • Management – Advise OTS of the steps          evaluate
                                        taken to expand the board and the depth       Downey’s
                                        of management to ensure that the board        management
                                        and management have the necessary             structure.
                                        resources, experience, and independence
                                        to address the matters contained herein.
                                      • Management – Confirm that
                                        comprehensive residential lending, ALLL,
                                        model risk, transactions with affiliates
                                        (TWA) and corporate compliance
                                        management policies and procedures


                Material Loss Review of Downey Savings and Loan Association, F.A.          Page 52
                (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective          Enforcement
started       rating     millions)   actions cited in reports of examinations          action
                                         have been developed and implemented.
                                     •   Management – Advise OTS of the steps
                                         taken to enhance the effectiveness of the
                                         internal audit function.
                                     •   Management – Describe the
                                         enhancements to TWA policies and
                                         procedures that will ensure appropriate
                                         controls for compliance with TWA
                                         Regulations.
                                     •   Earnings – Submit a copy of the revised
                                         one-year and three-year strategic plan
                                         that addresses the bank’s risk profile and
                                         OTS’s supervisory concerns.
                                     •   Sensitivity to Market Risk – Describe the
                                         actions taken to implement the corrective
                                         actions required in the Sensitivity Section
                                         of the OTS report.

                                     Other corrective actions
                                     • Capital – Create a well-defined
                                       methodology to determine if additional
                                       capital is necessary to address the
                                       different risk components of the bank’s
                                       residential loan portfolio.
                                       Capital – Develop a more comprehensive
                                       approach for determining the capital
                                       component for subprime loans. Establish
                                       written policies and procedures that
                                       address the overall Loan Performance
                                       model methodology. The policy should
                                       also provide for an independent model
                                       validation process.
                                     • Capital – Establish board-approved
                                       minimum capital targets that are more
                                       reflective of the bank’s layered risks in
                                       the bank’s loan products.
                                     • Asset Quality – Consolidate and improve
                                       loan policies and procedures in
                                       accordance with 12 CFR Section
                                       560.101 and Appendix A (Interagency
                                       Guidelines for Real Estate Lending
                                       Policies), and ensure that they are
                                       approved by the board.


               Material Loss Review of Downey Savings and Loan Association, F.A.            Page 53
               (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective        Enforcement
started       rating     millions)   actions cited in reports of examinations        action
                                     • Asset Quality – Implement new
                                       procedures and/or training to mitigate
                                       any reoccurrences of potential appraisal
                                       fraud or red flags resulting from loan
                                       originations.
                                     • Asset Quality – Implement procedures to
                                       improve the monitoring and presentation
                                       to the board of the layered risks
                                       comprising the Option Adjustable Rate
                                       Mortgage (ARM) portfolio.
                                     • Asset Quality – Summarize steps taken
                                       and strategies planned to minimize the
                                       potential impact of Option ARM payment
                                       shock risk.
                                     • Asset Quality – Revise the ALLL
                                       methodology and policy to incorporate
                                       qualitative measurements and stress
                                       testing.
                                     • Management – Adopt comprehensive
                                       residential lending, model risk, ALLL,
                                       TWA and compliance management
                                       policies and procedures.
                                     • Management – Ensure that risk
                                       management systems are implemented
                                       commensurate with the size and
                                       complexity of the bank’s operations.
                                     • Management – Expand the board through
                                       the addition of at least two independent
                                       directors and enhance the depth of
                                       management.
                                     • Management – Enhance the
                                       effectiveness of the internal audit
                                       function. Institute appropriate controls to
                                       ensure that directors consistently comply
                                       with the conflict of interest rules and
                                       regulations and ensure that Regulation W
                                       (Transactions between Member Banks
                                       and Their Affiliates) violations are
                                       corrected.
                                     • Earnings – Quantify in the business
                                       planning process the potential risk to
                                       earnings from negative amortization
                                       utilization.


               Material Loss Review of Downey Savings and Loan Association, F.A.          Page 54
               (OIG-09-039)
                Appendix 5
                OTS Downey Examinations and Enforcement Actions




Date                       Assets     Significant safety and soundness matters
examination   CAMELS            (in   requiring board attention and corrective       Enforcement
started       rating      millions)   actions cited in reports of examinations       action
                                      • Earnings – Develop a revised strategic
                                        plan and one-year budget.
                                      • Sensitivity to Market Risk – Ensure that
                                        the examination findings as detailed in
                                        the following memorandums are
                                        addressed:
                                        o Market Risk Practices and Interest
                                             Rate Risk Modeling – February 23,
                                             2006
                                        o Mortgage Servicing Rights –
                                             January 25, 2006
                                        o Loan Sale Activity – March 2, 2006
                                      • Compliance – Implement the necessary
                                        procedures and controls to ensure that
                                        future suspicious activities are
                                        appropriately referred to the Security
                                        Department for suspicious activity report
                                        filing considerations.

 3/5/2007     3/233222    $15,200     Matters requiring board attention              Cease and
                                      • Management – Describe the methods by         desist (C&D)
                                        which the board will become better           order issued
                                        informed about compliance management.        August 30,
                                        The board should require at least            2007 for
                                        quarterly management presentations and       weaknesses
                                        reports regarding compliance issues and      associated
                                        compliance management practices.             with the BSA
                                      • Asset Quality – Identify and establish a
                                        monitoring report tailored to the board’s
                                        needs that is evaluated at least quarterly
                                        and addresses the most pertinent aspects
                                        and risks of the bank’s asset quality.
                                      • Compliance – Detail the process the
                                        board will follow to ensure all corrective
                                        actions listed in the Compliance section
                                        of this report are completed.

                                      Other corrective actions
                                      • Asset Quality – Ensure implementation of
                                        broker reporting enhancements
                                        prescribed in OTS’s April 2007 memo.
                                      • Asset Quality – Improve documentation
                                        of security incident reports related to


                Material Loss Review of Downey Savings and Loan Association, F.A.         Page 55
                (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective         Enforcement
started       rating     millions)   actions cited in reports of examinations         action
                                         appraisals.
                                     •   Asset Quality – Ensure agreed to
                                         recommendations to the credit review
                                         function are implemented.
                                     •   Asset Quality – Reassign the $2.8 million
                                         unallocated portion of the ALLL to the
                                         qualitative adjustment for the single-
                                         family residential portion of the ALLL and
                                         consider establishing a maximum
                                         percentage for the qualitative adjustment
                                         to the single-family residential ALLL
                                         segment.
                                     •   Management – The board should receive,
                                         at a minimum, quarterly formal
                                         comprehensive compliance reports for
                                         review and discussion.
                                     •   Management – Ensure corrective actions
                                         concerning compliance management as
                                         detailed in the Compliance section of the
                                         report.
                                     •   Sensitivity to Market Risk – Evaluate the
                                         OTS recommendations in the memo titled
                                         “Oversight of Market Risk Management”,
                                         dated May 23, 2007.
                                     •   Sensitivity to Market Risk – Document
                                         the risk assessments performed by the
                                         model validation committee in
                                         determining the frequency and
                                         robustness of the scheduled model
                                         validations for key risk models.
                                     •   Compliance – Develop a more cohesive
                                         corporate–wide Bank Secrecy Act/anti-
                                         money laundering (BSA/AML) written
                                         policy/procedures for board approval.
                                         These policies and procedures need to
                                         incorporate a customer due diligence
                                         program and the customer identification
                                         program needs to incorporate the
                                         recording of date of issuance and date of
                                         expiration for documents used to identify
                                         customers, if the documents contain that
                                         information.
                                     •   Compliance – Develop and implement a


               Material Loss Review of Downey Savings and Loan Association, F.A.           Page 56
               (OIG-09-039)
                Appendix 5
                OTS Downey Examinations and Enforcement Actions




Date                       Assets     Significant safety and soundness matters
examination   CAMELS            (in   requiring board attention and corrective          Enforcement
started       rating      millions)   actions cited in reports of examinations          action
                                          comprehensive AML/suspicious activity,
                                          monitoring program including written
                                          policies and procedures.
                                      •   Compliance – Formalize into written
                                          policies and procedures current practices
                                          for tracking and monitoring of security
                                          incident report, investigations, and
                                          suspicious activity report filings.
                                      •   Compliance – Enhance the current
                                          BSA/AML United States of America
                                          Patriot Act (USAPA)/OFAC risk
                                          assessment to address the criteria
                                          contained in the memorandum to
                                          management dated May 21, 2007, on
                                          OTS’ review of BSA/AML/USAPA.
                                      •   Compliance – Enhance the current
                                          BSA/AML training to include discussions
                                          and examples of placement, layering, and
                                          integration. Additionally, develop training
                                          for the board, management, accounting,
                                          central operations, loan originations, and
                                          operations personnel geared to their
                                          respective duties as they related to
                                          BSA/AML.
                                      •   Compliance – Provide in-depth training on
                                          BSA/AML for the internal audit
                                          department or hire a qualified third party
                                          to perform the annual independent
                                          review of BSA/AML/USAPA compliance.
                                      •   Compliance – Develop a plan to collect
                                          missing required customer identification
                                          information on new accounts opened
                                          since 2003, and implement procedures to
                                          retain required customer identification
                                          program information going forward.

3/10/2008     4/444443    $13,100     Matters requiring board attention                 C&D orders
                                      • Capital – Implement the capital plan            (formal
                                        including a signed definitive agreement         enforcement
                                        from an investor or merger partner so as        action)
                                        to accomplish a capital infusion of $300        issued
                                        million or more no later than                   9/5/2008 to
                                        September 30, 2008.                             Downey and


                Material Loss Review of Downey Savings and Loan Association, F.A.            Page 57
                (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective        Enforcement
started       rating     millions)   actions cited in reports of examinations        action
                                     • Asset Quality – Develop a classified          Downey
                                       asset plan that establishes targets and       Financial
                                       procedures for ensuring the bank reduces      Corporation
                                       its ratio of classified assets to tangible    due to unsafe
                                       capital plus ALLL each succeeding             and unsound
                                       quarter beginning September 30, 2008.         lending
                                     • Asset Quality – Adopt a real estate           practices.
                                       owned (REO) disposition plan, in
                                       conjunction with the classified asset plan
                                       that will promote the effective
                                       management and disposition of REO.
                                     • Asset Quality – Implement enhancements
                                       to modification program guidelines and
                                       practices as noted in its response to
                                       OTS’s memorandum of June 13, 2008.
                                     • Management – Develop and adopt a
                                       management plan by no later than
                                       September 30, 2008 that addresses the
                                       shortcomings in the bank’s executive
                                       management structure, including
                                       proposals to fill vacancies at the chief
                                       executive officer and board level.
                                     • Management – Detail the steps it has
                                       taken to ensure that management
                                       complies with all operating restrictions
                                       imposed in the troubled condition letter.
                                     • Earnings – Develop a contingency plan to
                                       reduce operating costs and eliminate
                                       unnecessary expenses should the capital
                                       raising effort not be achieved by
                                       September 30, 2008.
                                     • Liquidity – Provide a contingent funding
                                       plan that formalizes the actions to be
                                       taken in the event of a funding crisis.
                                     • Liquidity – Enhance the monitoring and
                                       reporting for deposit accounts with
                                       balances in excess of $100,000.
                                     • Liquidity – Provide OTS with an analysis
                                       demonstrating that the bank has a plan
                                       to deal with the rate restrictions outlined
                                       in the Federal Deposit Insurance
                                       Corporation (FDIC) brokered deposit
                                       regulation at 12 CFR 337.6.


               Material Loss Review of Downey Savings and Loan Association, F.A.           Page 58
               (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective       Enforcement
started       rating     millions)   actions cited in reports of examinations       action

                                     Other corrective actions
                                     • Capital – Implement the capital plan
                                       including a signed definitive agreement
                                       from an investor or merger partner so as
                                       to accomplish a capital infusion of $300
                                       million or more no later than September
                                       30, 2008.
                                     • Asset Quality – Develop a classified
                                       asset plan that establishes targets and
                                       procedures for ensuring the bank reduces
                                       its ratio of classified assets to tangible
                                       capital plus ALLL each succeeding
                                       quarter beginning September 30, 2008.
                                     • Asset Quality – Adopt a REO disposition
                                       plan that will promote the effective
                                       management and disposition of REO, in
                                       conjunction with the classified asset
                                       plan.
                                     • Asset Quality – Implement enhancements
                                       to modification program guidelines and
                                       practices as noted in its response to
                                       OTS’s memorandum of June 13, 2008.
                                     • Management – Develop and adopt a
                                       management plan by no later than
                                       September 30, 2008 that addresses the
                                       shortcomings in the bank’s executive
                                       management structure, including
                                       proposals to fill vacancies at the CEO and
                                       board level.
                                     • Management – Detail the steps it has
                                       taken to ensure that management
                                       complies with all operating restrictions
                                       imposed in the troubled condition letter.
                                     • Earnings – Develop a contingency plan to
                                       reduce operating costs and eliminate
                                       unnecessary expenses should the capital
                                       raising effort not be achieved by
                                       September 30, 2008.
                                     • Liquidity – Provide a contingent funding
                                       plan to our office that formalizes the
                                       actions to be taken in the event of a
                                       funding crisis.


               Material Loss Review of Downey Savings and Loan Association, F.A.         Page 59
               (OIG-09-039)
               Appendix 5
               OTS Downey Examinations and Enforcement Actions




Date                      Assets     Significant safety and soundness matters
examination   CAMELS           (in   requiring board attention and corrective        Enforcement
started       rating     millions)   actions cited in reports of examinations        action
                                     • Liquidity – Enhance the monitoring and
                                       reporting for deposit accounts with
                                       balances in excess of $100,000.
                                     • Liquidity – Provide OTS an analysis
                                       demonstrating that the bank has a plan
                                       to deal with the rate restrictions outlined
                                       in the FDIC brokered deposit regulation at
                                       12 CFR 337.6.
                                     • Sensitivity to Market Risk – Ensure that
                                       liquidity projections and other forecasting
                                       assumptions are updated to reflect
                                       current prepayment behavior.
                                     • Sensitivity to Market Risk – Ensure
                                       internal net present value modeling
                                       results are prepared on a timely basis.
                                     • Compliance – Fair Lending:
                                          o conduct an analysis using year
                                              2006 Home Mortgage Disclosure
                                              Act data of aggregate broker-
                                              sourced pricing within markets
                                              (such as MSA’s) to identify
                                              potential market level disparate
                                              treatment. The analysis must
                                              include transaction level
                                              comparative file reviews
                                              (“benchmark/overlap analysis”) to
                                              determine if individual prohibited
                                              base borrowers were adversely
                                              priced. Take appropriate corrective
                                              action where indicated both to
                                              address root causes and to
                                              compensate and such adversely
                                              priced prohibited basis borrowers.
                                          o Perform additional analysis of 2007
                                              brokered-sourced applications to
                                              evaluate pricing disparities in
                                              aggregate activity within markets
                                              and take appropriate corrective
                                              action where indicated.
                                          o Given the high profile problems
                                              with the increasing trend of home
                                              loan delinquencies, modifications,
                                              prepayment fee waivers,


               Material Loss Review of Downey Savings and Loan Association, F.A.          Page 60
               (OIG-09-039)
                Appendix 5
                OTS Downey Examinations and Enforcement Actions




Date                       Assets     Significant safety and soundness matters
examination   CAMELS            (in   requiring board attention and corrective      Enforcement
started       rating      millions)   actions cited in reports of examinations      action
                                           foreclosures and other related
                                           problem credit activities, we
                                           recommend the fair lending program
                                           expand its review to include these
                                           servicing issues.
                                       o We encourage management to
                                           expand testing to include non-Home
                                           Mortgage Disclosure Act reported
                                           products such home equity lines of
                                           credit.
                                   • Compliance – Flood Disaster Protection
                                      Act:
                                           o When the final “Loans in Areas
                                               Having Special Flood Hazards
                                               Interagency Flood Questions
                                               and Answers” is issued,
                                               management should implement
                                               a review of the bank’s
                                               procedures for compliance with
                                               new guidance. If the review
                                               discloses that the procedures
                                               are not in compliance, then a
                                               corrective action plan to ensure
                                               compliance with the guidance
                                               should be implemented.
                                           o Develop written procedures for
                                               obtaining flood coverage on
                                               condominiums and loans in
                                               subordinate liens with particular
                                               attention being directed to loans
                                               where the priority lien holder is
                                               another institution.
Source: OIG analysis of OTS ROEs on Downey.




                Material Loss Review of Downey Savings and Loan Association, F.A.        Page 61
                (OIG-09-039)
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations




We have completed three mandated material loss reviews of failed thrifts since the
current economic crisis began in 2007. This appendix provides our recommendations
to the Office of Thrift Supervision (OTS) resulting from these reviews. OTS
management concurred with the recommendations and has taken or planned corrective
actions that are responsive to the recommendations. In certain instances, the
recommendations address matters that require ongoing OTS management and
examiner attention.

 Report Title                                        Recommendations to OTS Director
 Safety and Soundness: Material Loss Review of       Ensure that the recommendations/lessons
 NetBank, FSB, OIG-08-032 (Apr. 23, 2008)            learned from OTS’s internal assessments of the
                                                     NetBank failure, as described on pages 21 and
 OTS closed NetBank and appointed the Federal        28 of that report, are implemented.
 Deposit Insurance Corporation (FDIC) as receiver
 on September 28, 2007. At that time, FDIC           Re-emphasize to examiners that for 3-rated
 estimated that NetBank’s failure would cost the     thrifts, formal enforcement action is presumed
 Deposit Insurance Fund $108 million.                warranted when certain circumstances identified
                                                     in the OTS Examination Handbook are met.
                                                     Examiners are also directed to document in the
                                                     examination files the reason for not taking
                                                     formal enforcement action in those
                                                     circumstances.

                                                     Establish in policy a process to assess the
                                                     causes of thrift failures and the supervision
                                                     exercised over the institution and to take
                                                     appropriate action to address any significant
                                                     supervisory weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of       Ensure that action is taken on the lessons
 IndyMac Bank, FSB, OIG-09-032 (Feb. 26,             learned and recommendations from the OTS
 2009)                                               internal review of the IndyMac failure.

 OTS closed IndyMac on July 11, 2008, and            Caution examiners that assigning composite
 named FDIC as conservator. As of My 8, 2009,        CAMELS ratings of 1 or 2 to thrifts with high-
 FDIC estimated that IndyMac’s failure would         risk, aggressive growth business strategies need
 cost the Deposit Insurance Fund $10.7 billion.      to be supported with compelling, verified
                                                     mitigating factors. Such mitigating factors
                                                     should consider things such as the institution’s
                                                     corporate governance, risk management
                                                     controls, allowance for loan and lease losses
                                                     methodologies, concentration limits, funding
                                                     sources, underwriting standards, and capital
                                                     levels and whether the mitigating factors are
                                                     likely to be sustainable in the long-term. Another
                                                     important factor that should be considered is the
                                                     extent to which the thrift offers nontraditional
                                                     loan products (regardless of whether loans are


                      Material Loss Review of Downey Savings and Loan Association, F.A.          Page 62
                      (OIG-09-039)
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations




                                                   sold or retained) that have not been stress
                                                   tested in difficult financial environments, and
                                                   whether the thrift can adequately manage the
                                                   risks associated with such products. OTS should
                                                   re-examine and refine as appropriate its guidance
                                                   in this area.

Safety and Soundness: Material Loss Review of      Remind examiners of the risks associated with
Ameribank, Inc., OIG-09-036 (April 7, 2009)        rapid growth in high-risk concentrations.

OTS closed Ameribank and appointed the FDIC        Remind examiners to conduct more thorough
as receiver on September 19, 2008. As of           loan sampling from the portfolio if they identify a
December 31, 2008, FDIC estimated that             rapid increase in concentration.
Ameribank’s failure would cost the Deposit
Insurance Fund $33.4 million.                      Remind examiners of the examination guidance
                                                   for thrift third-party relationships, with particular
                                                   attention to the assessment of the risk the
                                                   relationship may pose to the thrift’s safety and
                                                   soundness.

                                                   Assess the need for guidance requiring risk
                                                   assessment of construction rehabilitation
                                                   account loans as an integral part of assessing a
                                                   thrift’s overall risk.

                                                   Ensure that the recommendations and the
                                                   lessons learned from OTS’s internal assessment
                                                   of the Ameribank failure are implemented.




                    Material Loss Review of Downey Savings and Loan Association, F.A.             Page 63
                    (OIG-09-039)
Appendix 7
Management Response




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 64
(OIG-09-039)
Appendix 7
Management Response




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 65
(OIG-09-039)
Appendix 8
Major Contributors to This Report




Jeffrey Dye, Audit Manager
Michelle Littlejohn, Auditor in Charge
Alicia Bruce, Auditor
Michael Shiely, Auditor
Myung Han, Referencer




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 66
(OIG-09-039)
Appendix 9
Report Distribution




Department of the Treasury

    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Office of Thrift Supervision
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Chairman

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

U.S. Government Accountability Office

    Acting Comptroller General of the United States




Material Loss Review of Downey Savings and Loan Association, F.A.   Page 67
(OIG-09-039)
